                 

                 

                    U.S. ENVIRONMENTAL PROTECTION AGENCY 

                    OFFICE OF INSPECTOR GENERAL 




                    Examination of Costs Claimed
                    Under EPA Cooperative
                    Agreement 2A-83440701 Awarded
                    Under the Recovery Act to
                    Cascade Sierra Solutions,
                    Eugene, Oregon

                    Report No. 12-R-0749                September 4, 2012




Scan this code to
learn more about
the EPA OIG.
Report Contributors:                                Michael Owen
                                                    Darren Schorer
                                                    John Burns
                                                    Eileen Collins




Abbreviations

CA                     Cooperative Agreement
CARB                   California Air Resources Board
CFR                    Code of Federal Regulations
CSS                    Cascade Sierra Solutions
DERA                   Diesel Emissions Reduction Act
EPA                    U.S. Environmental Protection Agency
FY                     Fiscal year
FTE                    Full-time equivalent
MY                     Model year
OIG                    Office of Inspector General
OMB                    Office of Management and Budget
Recovery Act           American Recovery and Reinvestment Act of 2009


Cover photo: Example of an EPA certified SmartWay tractor. (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:      OIG_Hotline@epa.gov                     write:   EPA Inspector General Hotline
  phone:       1-888-546-8740                                   1200 Pennsylvania Avenue NW
  fax:         202-566-2599                                     Mailcode 2431T
  online:      http://www.epa.gov/oig/hotline.htm               Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               12-R-0749
                                                                                                      September 4, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Examination of Costs Claimed Under EPA
The U.S. Environmental
                                    Cooperative Agreement 2A-83440701 Awarded
Protection Agency (EPA),            Under the Recovery Act to Cascade Sierra
Office of Inspector General,
reviewed the amounts drawn
                                    Solutions, Eugene, Oregon
by Cascade Sierra Solutions
(CSS) under Cooperative              What We Found
Agreement (CA) 2A-83440701.
The purpose of the audit was to     CSS’ financial management system did not support that funds drawn are
determine whether CSS               reasonable, allocable, and allowable in accordance with applicable laws,
complied with federal               regulations, and CA terms and conditions. In particular, CSS’:
requirements and terms and
conditions for Diesel Emission             Financial management system pertaining to cash draws, revolving fund
Reduction Act grants or                     accounting, project costs, and progress reporting does not meet the
cooperative agreements                      requirements of the Code of Federal Regulations (CFR) under 40 CFR
awarded under the American                  Part 30 and 2 CFR Part 230, and the CA.
Recovery and Reinvestment                  Procurements did not meet competition or cost and price analysis
Act of 2009 (Recovery Act).                 requirements of 40 CFR Part 30, the recipient’s procurement policy, or
EPA awarded the CA to CSS in                CA requirements.
August 2009 under the                      Reporting of the number of jobs created or retained with Recovery Act
Recovery Act. The CA provides               funds did not comply with Office of Management and Budget guidance.
$9 million to create a revolving
loan program for heavy duty         As a result, we are unable to provide an opinion on the financial resources,
diesel trucks to save fuel and      related liabilities, revenue, expenses, and residual balances of the CA-funded
reduce emissions.                   revolving loan program. Therefore, we have questioned the $9 million drawn
                                    under the CA as unallowable costs.
This report addresses the
following EPA Goal or Cross-         Recommendations and Planned Agency Corrective Actions
Cutting Strategy:
                                    We recommend that the Director for the Office of Grants and Debarment disallow
 Taking action on climate          and recover $9 million in questioned costs; consider suspension and debarment
  change and improving air          of CSS on current and future awards; require CSS to ensure that the use of funds
  quality                           meets federal criteria; require special conditions for future awards to CSS; and
                                    provide clarifying guidance to CSS on progress reporting requirements. We also
                                    recommend that the Director require CSS to comply with pertinent procurement
                                    requirements; disallow pre-2007 model year trucks as project costs; and assist
                                    CSS with developing a methodology to calculate number of jobs created and
                                    direct CSS to correct the numbers reported, with documentation. The Agency
For further information, contact    generally agreed with the findings and said that it has initiated corrective actions
our Office of Congressional and
                                    to address some of the weaknesses identified in the report. CSS disagreed with
Public Affairs at (202) 566-2391.
                                    most of the findings and two of the recommendations. CSS partially agreed with
The full report is at:              one recommendation and neither agreed nor disagreed with six
www.epa.gov/oig/reports/2012/       recommendations. CSS described actions planned to document compliance with
20120904-12-R-0749.pdf              EPA procurement regulations and is willing to work with EPA on developing a
                                    Recovery Act job reporting methodology.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                               THE INSPECTOR GENERAL




                                       September 4, 2012

MEMORANDUM

SUBJECT:       Examination of Costs Claimed Under EPA Cooperative Agreement 2A-83440701
               Awarded Under the Recovery Act to Cascade Sierra Solutions, Eugene, Oregon
               Report No. 12-R-0749


FROM:          Arthur A. Elkins, Jr.

TO:            Howard Corcoran
               Director, Office of Grants and Debarment
               Office of Administration and Resources Management


This is our report on the subject examination conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position. EPA
managers in accordance with established audit resolution procedures will make final
determinations on matters in this report.

We performed this examination as part of our responsibility under the American Recovery and
Reinvestment Act of 2009 (Recovery Act). The purpose of our examination was to determine
whether the amounts drawn by Cascade Sierra Solutions (CSS) under Cooperative Agreement
2A-83440701 were reasonable, allocable, and allowable in accordance with federal requirements
and terms and conditions for Diesel Emission Reduction Act grants awarded under the Recovery
Act. CSS received $9 million in Recovery Act funds under the EPA award.

Action Required

In accordance with EPA Manual 2750, Chapter 3, Section 6(f), you are required to provide us
your proposed management decision for resolution of the findings contained in this report before
you formally complete resolution with the recipient. As part of the audit resolution process, your
proposed decision is due in 120 days, or on January 2, 2013. To expedite the resolution process,
please e-mail an electronic version of your proposed management decision to
adachi.robert@epa.gov.
Your response will be posted on the OIG’s public website, along with our memorandum
commenting on your response. Your response should be provided as an Adobe PDF file that
complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want to be released to the
public; if your response contains such data, you should identify the data for redaction or removal.
We have no objection to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Robert Adachi, Product Line Director, at (415) 947-4537 or adachi.robert@epa.gov.
 Examination of Costs Claimed Under                                                                                    12-R-0749
 EPA Cooperative Agreement 2A-83440701 Awarded Under the
 Recovery Act to Cascade Sierra Solutions, Eugene, Oregon


                                Table of Contents 


Chapters
 1    Independent Attestation Report........................................................................                    1


 2    Introduction ........................................................................................................     4


 3    Financial Management System Does Not Meet Federal Requirements ........                                                   6


 4    Procurements Did Not Meet Federal or Recipient Requirements .................                                            16 


 5    Job Reporting Does Not Comply With OMB Guidance ..................................                                       21 


 Status of Recommendations and Potential Monetary Benefits..............................                                       24 




Appendices
 A    Agency’s Comments on Draft Report ..............................................................                         26 


 B    CSS’ Comments on Draft Report and OIG Evaluation....................................                                     29 


 C    Distribution .........................................................................................................   66 

                                 Chapter 1

                   Independent Attestation Report
            As part of our oversight of cooperative agreement (CA) awards by the U.S.
            Environmental Protection Agency (EPA), we have examined Cascade Sierra
            Solutions’ (CSS’) compliance with the requirements of the Code of Federal
            Regulations (CFR) under 2 CFR Part 230, Cost Principles for Non-Profit
            Organizations; 40 CFR Part 30, Uniform Administrative Requirements for Grants
            and Agreements with Institutions of Higher Education, Hospitals, and Other
            Non-Profit Organizations; and the American Recovery and Reinvestment Act of
            2009 (Recovery Act) applicable to the outlays for CA 2A-83440701. By
            accepting the funding provided through the CA, CSS has responsibility for
            complying with these requirements. Our responsibility is to express an opinion on
            CSS’ compliance based on our examination.

            Our examination was conducted in accordance with generally accepted
            government auditing standards issued by the Comptroller General of the United
            States and the attestation standards established by the American Institute of
            Certified Public Accountants. We examined, on a test basis, evidence supporting
            management’s assertion and performed such other procedures as we considered
            necessary in the circumstances. We believe that our examination provides a
            reasonable basis for our opinion.

            We contacted EPA’s Office of Transportation and Air Quality as well as the
            Grants and Interagency Agreements Management Division in EPA’s Office of
            Grants and Debarment within the Office of Administration and Resources
            Management, and the Office of General Counsel. We gathered information on
            criteria relevant to the CA; obtained an understanding of the proposed revolving
            loan fund; and gathered information concerning CSS’ performance. Specifically,
            we performed the following steps:

                  Reviewed the request for application associated with award of CA
                   2A-83440701.
                  Reviewed CA 2A-83440701 awarded to CSS and its modifications.
                  Reviewed CSS’ work plan.
                  Reviewed 2 CFR Part 230 and 40 CFR Part 30.
                  Conducted interviews with EPA’s project officer for the CA.

            We made site visits to CSS’ office in Eugene, Oregon, and performed the
            following steps:




12-R-0749                                                                                      1
               	 Reviewed requests for reimbursement to EPA under the CA to determine
                  whether the draws complied with federal requirements and were disbursed
                  for expenditures allocable to the CA.
               	 Reviewed CSS’ progress report for the quarter ending December 31, 2010,
                  to obtain an understanding of the financial status and activities of the
                  revolving loan program.
               	 Selected a judgmental sample of $4,336,066 in expenditures that CSS
                  associated with the $9 million in cash drawn under the CA. We reviewed
                  supporting invoices, payment documents, and associated accounting
                  system entries to determine whether the expenditures were allocable and
                  allowable under 40 CFR Part 30 and the CA.
               	 Selected a judgmental sample of 4 of 798 projects listed in CSS’ progress
                  report for the quarter ending December 31, 2010, to determine whether
                  costs were allowable under 2 CFR Part 230, 40 CFR Part 30, and the CA.
                  The sample represented $229,350 of $47,918,615 in total project costs
                  reported to EPA. We did not expand the sample because of material
                  deficiencies with CSS’ financial management system.
               	 Reviewed CSS’ chart of accounts and general ledger detail to determine
                  whether the revolving fund program activity was segregated within the
                  accounting system.
               	 Selected a judgmental sample of 4 of 27 completed truck procurement
                  actions exceeding $100,000 that CSS identified as allocable to the CA-
                  funded revolving loan program. The sample represented $3,303,337 of the
                  $10,477,704 in total costs for the 27 procurement actions. We reviewed all
                  available supporting documentation for the sample of truck procurements
                  to determine whether CSS met applicable requirements of 40 CFR Part 30.
               	 Selected a judgmental sample of 11 of 472 emission control equipment
                  procurements. The sample represented $163,193 of $4,987,923 in total
                  costs reported by CSS for the 472 procurements. We reviewed all
                  available supporting documentation for the sample to determine whether 
                  CSS met applicable requirements of 40 CFR Part 30. We did not expand
                  the sample because of material deficiencies with CSS’ financial
                  management system.  
               	 Conducted interviews of CSS’ personnel to gain an understanding of the
                  organization’s accounting system, internal controls, and costs reported
                  under the CA.

            We reviewed other prior independent reviews of CSS’ financial management
            system for the CA. We reviewed CSS’ 2009 audit required under the Single Audit
            Act Amendments of 1996 and draft financial statements for 2010. As part of the
            review, we interviewed the public accounting firm performing the single audit to
            gain a complete understanding of the scope of the 2009 single audit. We reviewed
            a 2010 report on a limited scope financial management system review of CSS
            performed for EPA’s Office of Transportation and Air Quality. We also reviewed
            the supporting working papers to obtain a complete understanding of the scope
            and results of the evaluation.


12-R-0749                                                                                  2
            We conducted our audit work between March 2011 and December 2011. Our
            examination disclosed material noncompliance and internal control weaknesses
            with financial management. In particular, CSS’:

               	 Financial management system pertaining to cash draws, revolving fund
                  accounting, project costs, and progress reporting does not meet the
                  requirements of 40 CFR Part 30, 2 CFR Part 230, and the CA.
               	 Procurements did not meet competition or cost and price analysis
                  requirements of 40 CFR Part 30, the recipient’s procurement policy, or
                  CA requirements.
               	 Reporting of the number of jobs created or retained with Recovery Act
                  funds did not comply with Office of Management and Budget (OMB)
                  reporting guidance.

            As a result, we are unable to provide an opinion on the financial resources, related
            liabilities, revenue, expenses, and residual balances of the CA-funded revolving
            loan program. Therefore, we have questioned the $9 million drawn under the CA
            as unallowable costs and recommend that EPA recover these funds from CSS.

            In our opinion, because of the effect of the issues described above, CSS has not
            complied with federal requirements for the grant period ending December 31,
            2010.



            Robert K. Adachi
            Director for Forensic Audits
            September 4, 2012




12-R-0749                                                                                      3
                                  Chapter 2

                                   Introduction
Purpose
            EPA’s Office of Inspector General (OIG) conducted this review to determine
            whether the amounts drawn by CSS under CA 2A-83440701 were reasonable,
            allocable, and allowable in accordance with federal requirements and terms and
            conditions for Diesel Emission Reduction Act (DERA) grants awarded under the
            Recovery Act.

Background
            DERA was signed into law in August 2005 under Title VII, Subtitle G, of the
            Energy Policy Act of 2005. DERA authorized $200 million per year from fiscal
            years (FYs) 2007 to 2011 (or a total of $1 billion) for EPA to fund programs to
            achieve significant reductions in diesel emission in terms of tons of pollution
            produced and diesel emission exposures, particularly from fleets operating in
            areas designated by the Agency as poor air quality areas. Of the authorized DERA
            amount, 70 percent is authorized for competitive national grant and low cost
            revolving loans, as determined by the EPA Administrator. The remaining
            30 percent is for state grant and loan programs. Congress appropriated a total of
            $169.2 million for EPA under DERA for FYs 2008 through 2010. Congress
            appropriated an additional $300 million to EPA in FY 2009 for DERA grants
            under the Recovery Act.

            EPA awarded CA 2A-83440701 on August 24, 2009, to CSS through the DERA
            SmartWay Clean Diesel Finance Program. EPA’s SmartWay Clean Diesel
            Finance Program issues grants to establish innovative financing programs for
            buyers of eligible diesel or alternatively fueled vehicles and equipment. The
            purpose of the award to CSS was to provide federal assistance of $9 million in
            Recovery Act funds to create a national revolving loan program for heavy-duty
            trucks (trucks) to save fuel and reduce emissions. The grant budget and project
            period was from August 1, 2009, to October 31, 2011. As of December 31, 2010,
            CSS had drawn down all $9 million.

            CSS, based in Eugene, Oregon, is a non-profit organization with a mission to save
            fuel and reduce emissions from heavy duty diesel engines. CSS promotes EPA
            SmartWay-verified technologies and products certified by the California Air
            Resources Board, as well as emerging technologies, that have been shown to
            provide quantifiable emission reduction benefits. CSS assists truck owners to
            finance clean diesel solutions using state, federal, and private sources of funding.
            Table 1 identifies some of the sources of CSS’ funding as of December 31, 2010.


12-R-0749                                                                                      4
            Table 1: Partial list of CSS funding sources
                                          Source                                      Award amount
             EPA Region 1                                                                   $1,148,236
             EPA Region 2                                                                    1,404,327
             EPA Region 6                                                                    1,150,228
             EPA Region 8                                                                      850,000
             EPA Region 10                                                                     907,072
             EPA SmartWay 1                                                                  1,130,000
             EPA SmartWay 2 (CA 2A-83440701)                                                 9,000,000
             EPA SmartWay 3                                                                  2,000,000
             Puget Sound Clean Air Authority                                                 2,000,000
             City of Sacramento Congestion Mitigation and Air Quality                          200,000
             California Proposition 1B                                                      19,335,000
             U.S. Department of Energy                                                      22,200,000
             Total                                                                         $61,324,863
             Source: Schedule of federal, state, and local awards as of December 31, 2010, provided by CSS.


            CSS provides operators with truck replacements and SmartWay equipment
            upgrades that are intended to reduce fuel consumption and emissions through the
            CA-funded revolving loan program. CSS’ revolving loan program focuses on
            providing truck replacements and equipment upgrades to operators through lease-
            to-own agreements. CSS intends to replenish the revolving loan fund through
            payments made under the lease-to-own agreements.




12-R-0749                                                                                                5
                                 Chapter 3

       Financial Management System Does Not Meet 

                  Federal Requirements 

            CSS’ financial management system does not meet federal requirements that apply
            under the EPA CA award. Specifically:

               	 Cash draws did not comply with 40 CFR Part 30.22, Appendix A of
                  2 CFR Part 230, or the terms and conditions of the CA.
               	 A formal revolving fund has not been established to support the revolving
                  loan program specified by the CA or to meet the requirements of 40 CFR
                  Part 30.21.
               	 Revolving loan program projects costs and associated lessee payments
                  were not fully supported as required by 40 CFR Part 30.21 and
                  Appendix A of 2 CFR Part 230.
               	 The progress report for the quarter ending December 2010 did not
                  accurately identify expenditures by funding source, the number of
                  projects, and the total cost of projects in the revolving fund program.

            As a result, CSS is unable to support that all funds drawn under the CA were used
            for expenditures that are allowable under and allocable to the CA. We are also
            unable to provide an opinion on the financial resources, related liabilities,
            revenue, expenses, and residual balances of the revolving fund. Therefore, we
            question the $9 million drawn under the CA as unallowable costs and recommend
            that EPA recover these funds from CSS. EPA should also consider suspension
            and debarment proceedings against CSS. We found that the financial management
            issues were primarily caused by CSS’ underestimating accounting system
            requirements for the revolving fund.

Cash Draws Did Not Meet Federal Requirements
            CSS’ advance cash draws did not comply with the requirements of 40 CFR Part
            30.22, Appendix A of 2 CFR Part 230, or the terms and conditions of the CA.
            CSS cash draws exceeded immediate cash needs during October and November
            2009. In addition, CSS’ accounting system information and documentation did
            not show that the draws were supported by expenditures incurred under the CA.
            As a result, CSS was required to repay EPA $1,751 in interest income earned on
            the cash draws and was not able to show that the $9 million in draws were used
            for expenditures allocable to and allowable under the CA.




12-R-0749                                                                                    6
            Cash Draws Exceeded Cash Needs

            CSS drew down the $9 million award over the period from September 2009
            through October 2010. For the months of October and November 2009, six of
            CSS’ cash draws exceeded immediate cash needs according to the recipient’s
            records. These cash draws exceeded immediate cash needs by amounts ranging
            between $510, 257 and $3,141,127, as summarized in table 2 below.

            Table 2: Draws in excess of cash needs
                                                Draws in excess
                                                    of needs
             Date of draw      Draw amount        (cumulative)
               10/01/09            $1,000,000            $510,257
               10/07/09               742,000           1,252,257
               10/14/09             2,000,000           2,558,257
               10/27/09             1,000,000           2,863,497
               11/05/09             1,000,000           2,156,127
               11/11/09             1,000,000           3,141,127
                 Total             $6,742,000
             Source: CSS Schedule of Federal Awards

            Programmatic Condition 16 of the CA specifies that the recipient may request
            payment from EPA after it incurs an obligation in accordance with 40 CFR Part
            30.22. Under 40 CFR Part 30.22(b), cash advances are limited to the minimum
            amounts needed and are to be timed in accordance with the actual, immediate
            cash requirements of the recipient. Title 40 CFR Part 30.22(b) also specifies that
            the timing and amount of cash advances shall be as close as is administratively
            feasible to the actual disbursements by the recipient.

            According to CSS management, CSS drew cash in advance to have funds
            available for truck procurements. However, CSS management said that CSS was
            not able to make some anticipated truck purchases, resulting in the excess CA
            funds on hand. The issue of excess CA funds on hand was identified during
            October 2010 as part of a limited scope review conducted for EPA by a
            contractor. The limited scope review also identified that CSS earned $1,751 of
            interest on the excess funds. CSS remitted the interest earned on the CA funds to
            EPA based on the finding of the limited scope review. Under 40 CFR Part
            30.22(l), interest earned in excess of $250 must be remitted to the federal
            government. Therefore, EPA has satisfactorily resolved the interest income issue.

            Cash Draws Not Supported as Allocable and Allowable

            CSS’ accounting system information and documentation did not show that the
            cash draws were supported by expenditures incurred under the CA. Title 40 CFR
            Part 30.21(b)(2) specifies that recipient financial management systems shall
            provide records that identify adequately the source and application of funds for
            federally sponsored activities. In addition, 2 CFR Part 230, Appendix A, A.2(a)
            and (g), require costs to be allocable and adequately documented to be considered


12-R-0749                                                                                        7
            allowable under an award. Consistent with these regulations, Programmatic
            Condition 2.5.A of the CA requires the recipient to maintain records that ensure
            Recovery Act funds are accounted for separately from other grant program funds.

            Our review of CSS’ accounting system information and bank records showed that
            the $9 million in draws under the CA were recorded in and deposited to multiple
            general ledger and bank accounts that included funds from other grant programs.
            These grant programs were funded through other EPA and various state and local
            government agreements. For example, CSS initially deposited the $6.7 million of
            draws listed in table 2 above into a savings account and subsequently transferred
            90 percent of these draws between two checking accounts. These three accounts
            included funding from other sources. These deposit transactions were also
            recorded in similar savings and checking general ledger accounts that included
            funding from other sources. Because the CA funding was recorded in and
            deposited to accounts that included funds from other sources, we were unable to
            reconcile the $6.7 million in draws with expenditures made under the CA.

            We also reviewed a judgmental sample of $4,336,066 in expenditures that CSS
            associated with the $9 million in cash draws. Our review of invoices, payment
            documents, and accounting system entries provided by CSS to support the
            expenditures identified that the documentation and entries did not include
            notations or coding showing that the costs were incurred under the CA. The
            documentation and accounting entries only provided information on the type of
            truck or equipment, cost, and the bank account from which the funds were drawn.
            Because of these accounting and documentation issues, we were unable to verify
            that CSS used the $9 million of EPA funding for expenditures that are allocable to
            and allowable under the CA.

Revolving Loan Fund Requirement Not Met
            CSS has not established a formal fund to support the revolving loan program that
            meets the requirements of 40 CFR Part 30.21. The CA specifies that CSS
            establish a revolving loan program for heavy-duty trucks to save fuel and reduce
            emissions with the $9 million award. As discussed earlier in the report, 40 CFR
            Part 30.21(b)(2) requires recipients’ financial management systems to provide
            records that adequately identify the source and application of funds for federally
            sponsored activities. Title 40 CFR Part 30.21(b)(3) further specifies that
            recipients’ financial management systems provide accountability for funds,
            property, and other assets. The CA also provides specific accountability
            requirements for the award. Programmatic Condition 2.5.A requires the recipient
            to maintain records that ensure Recovery Act funds are tracked separately from
            other grant programs. Programmatic Condition 2.7 requires the recipient to
            maintain effective control over and be accountable for all funds, property, and
            other assets accrued as a result of the CA.




12-R-0749                                                                                        8
            CSS has not segregated in the accounting system all revenues, costs, cash, and
            accounts receivables associated with funding provided under the CA from the
            organization’s other programs or operations. CSS had not implemented a project
            cost system for expenditures made under the CA-funded revolving fund program.
            CSS did not establish separate accounts for revolving fund transactions during
            calendar year 2009. CSS recorded revenues, costs, cash, and accounts receivables
            associated with its revolving fund program to accounts that included transactions
            from other programs during 2009. During calendar year 2010, CSS used seven
            dedicated accounts within its accounting system to track revenues and expenses of
            the revolving fund program separately from other CSS programs and operations.
            These accounts consisted of one revenue account that contained $78,000 of the
            $9,000,000 award and six salary and salary-related accounts that totaled $277,431
            in expenses. However, the accounts used by CSS in calendar year 2010 did not
            track all revenues, costs, cash, and accounts receivables associated with the
            revolving fund program.

            Rather than establishing a comprehensive separate set of accounts for the
            revolving fund program, CSS tracked revolving fund revenues, costs, and lease
            receivables using spreadsheets. We were not able to reconcile the spreadsheets to
            the accounting system because most revolving fund transactions were not
            segregated from other transactions in the system. For example, a spreadsheet
            provided to us by CSS reporting revolving fund transactions as of December 31,
            2010, showed a total lease receivable of $37,037,426. We were unable to verify
            this total because CSS had not recorded the receivables in a designated revolving
            fund account(s) in the accounting system. Because CSS has not established and
            used a comprehensive set of accounts for the revolving fund, we are unable to
            provide an opinion on the financial resources, related liabilities, revenue,
            expenses, and residual balances of the fund.

Project Costs Not Fully Supported
            CSS was unable to provide complete support for revolving loan program project
            costs and associated lessee payments as required by Appendix A of 2 CFR
            Part 230 and 40 CFR Part 30.21. CSS reported in its progress report to EPA for
            the quarter ending December 31, 2010, that 798 truck and equipment projects
            with a total cost of $47,918,615 were funded through the revolving loan program.
            We reviewed a judgmental sample of 4 of the 798 projects to determine if costs
            were allowable under 2 CFR Part 230, 40 CFR Part 30, and the CA. The sample
            consisted of CSS truck procurements that were subsequently leased by CSS to
            truck operators under lease-to-own agreements. The sample represented $229,350
            of the $47,918,615 reported total project costs. CSS’ supporting records disclosed
            that the total reported cost for each project in the sample generally included the
            truck purchase price, sales taxes, repair costs, and global positioning system
            installation costs. CSS used the total reported cost for each project to calculate the
            payments specified in the lease agreement associated with the project. Our review
            of invoices and other available supporting records provided by CSS identified that


12-R-0749                                                                                        9
            the cost of one truck project was understated and the costs of the other three
            projects were overstated. Table 3 below summarizes the results of our review.

            Table 3: Comparison of reported project costs with supporting records
                 Project       Reported cost      Supported costs       Difference

             PHA -007                      $25,925               $26,841                 ($916)
             JBC028                         26,816                26,733                     83
             P1B102-103                     93,128                91,855                  1,273
             P1B102-331                     83,481                83,012                    469
             Total                        $229,350              $228,441                   $909
             Source: Invoices, lease documents, and other supporting documents provided by CSS.

            As a result, payments established under leases for these four projects were based
            on either understated or overstated project costs. We did not expand the scope of
            our testing for reported project costs and lease payments because CSS had not
            implemented a project cost system for expenditures under the CA-funded
            revolving loan fund program as discussed earlier in this chapter. Therefore, we
            were not able to verify whether reported project costs were allocable to the CA.

            CSS management acknowledged that project costs could not be reconciled to
            supporting records and said that the costs for each project included estimated
            rather than actual repair costs. According to CSS management, CSS was required
            to estimate the total cost of each project for the following reasons:

                   CSS was required to provide potential lessees with the price of the trucks
                    prior to ordering the vehicles shipped; therefore, CSS was unable to
                    determine the repair costs associated with the vehicles until they arrived.
                   CSS ordered trucks in batches and repaired them in batches.
                   The costs associated with repairing the trucks were billed monthly to CSS
                    and not broken down by individual trucks.

            CSS management also stated that the estimated allowance for repairs averages out
            over time, and CSS adjusts the estimate according to the projects and anticipated
            repairs.

            Title 2 CFR Part 230, Appendix A, A.2 (a) and (g), require costs to be allocable
            and adequately documented to be considered allowable under an award. In
            addition, 40 CFR Part 30.21(b)(2) requires recipients’ financial management
            systems to include records that adequately identify the source and application of
            funds for federally sponsored activities. This regulation further states that these
            records should include information pertaining to assets, outlays, income, and
            interest. CSS was unable to support that all reported projects costs are allowable
            under 2 CFR Part 230 and 40 CFR Part 30. CSS was also unable to accurately
            identify income or losses from leases or measure whether leases and the revolving
            fund program were economically sound because it did not meet the financial
            management requirements of 40 CFR Part 30.


12-R-0749                                                                                         10
Progress Reporting Not Accurate
            CSS’ progress report for the quarter ending December 2010 did not accurately
            identify expenditures by funding source, the number of projects, and the total cost
            of projects in the revolving fund program.

            Programmatic Condition 5 of the CA requires CSS to provide EPA with quarterly
            reports that address progress toward achieving the work plan goals. The condition
            specifies that the reports will include summary information on planned activities,
            implementation of diesel emission reduction strategies, expenditures, and issuance
            of loans, leases, or bonds.

            Our review of CSS records associated with revolving fund activities identified
            that the organization’s progress report for the quarter ending December 31, 2010,
            submitted to EPA was not accurate. The report disclosed that CSS spent
            $8,982,000 of CA funding on revolving fund projects. However, CSS’ records
            showed that reported funding amounts for expenditures on projects partially
            funded through both CA and financial institution loan funding were not correct.
            According to CSS records, the recipient overstated EPA and understated financial
            institution-funded expenditures for projects listed in the quarterly report. We
            discussed this issue with CSS staff and management in March 2011. In response,
            in May 2011, CSS provided us with revised report information covering the
            quarter ending December 31, 2010. A comparison of the report submitted to EPA
            with the revised information showed that the quarterly report overstated CA-
            funded expenditures by $5,458,808 and understated expenditures funded through
            financial institution loans by $5,354,928. The comparison also identified that the
            number of projects was overstated and total project costs and funding from other
            sources were understated in the quarterly report. The differences between the
            quarterly report and the revised information are summarized in table 4 below.

            Table 4: Comparison of quarterly report with corrected information
                                             Quarterly report
                                            for period ending Revised report
                   Report Category           December 2010         information   Difference
             Number of projects                     798                 759          39
             Total project costs               $47,918,615         $48,531,668   ($613,053)
             Down payments on projects           $695,969            $904,658    ($208,689)
             State grant-funded                $20,099,849         $20,220,703   ($120,854)
             Expenditures
             Expenditures funded by            $18,140,796         $23,495,724  ($5,354,928)
             financial institution loans
             CA-funded expenditures             $8,982,000          $3,523,192   $5,458,808
             Source: CSS progress report for quarter ending December 2010 and updated 

             program reporting information covering the reporting period. 



            Our review of the revised report information also identified that CSS has
            $777,545 of EPA funds that appear to be available to revolve to other projects.
            However, we were unable to verify whether the revised information was accurate


12-R-0749                                                                                      11
            because of the other financial management issues discussed earlier in the chapter.
            Without accurate quarterly reporting by CSS, EPA is unable to measure the
            recipient’s progress toward achieving the goals of the CA.

Primary Cause for Financial Management Issues
            We found that the financial management issues were primarily caused by CSS’
            underestimating accounting system requirements for the revolving fund.
            According to CSS management, CSS thought it could manage the revolving fund
            without using the limited project cost function of the accounting system.
            However, the management said that as the complexity of the fund increased, CSS’
            accounting system was not sophisticated enough to provide tracking of all sources
            and uses of funding. Management also said that CSS understands that
            improvements are needed and the organization is working to make improvements
            to the accounting system that will provide better visibility of the revolving fund.

Conclusion

            Based on the findings above, CSS does not meet the minimum requirements for a
            financial management system. We are unable to provide an opinion on the
            financial resources, related liabilities, revenue, expenses, and residual balances of
            the revolving fund because of the financial management deficiencies. As a result,
            we question the $9 million drawn under the CA as unallowable costs under 2 CFR
            Part 230. Therefore, we recommend that EPA recover these questioned costs if
            CSS is unable to provide records that show the costs meet federal financial
            management requirements.

            Title 2 CFR Part 180, OMB Guidelines to Agencies on Governmentwide
            Debarment and Suspension (Nonprocurement), at subsection 180.800(b),
            specifies that an Agency may pursue a suspension and debarment action for
            violations of the terms of a public agreement or transaction so serious as to affect
            the integrity of an agency program. During FY 2009, EPA awarded a total of
            $30 million in Recovery Act funding to recipients for SmartWay Clean Diesel
            Finance Program projects. EPA’s $9 million award to CSS represents 30 percent
            of the Recovery Act awards under this program. Therefore, CSS’ financial
            management deficiencies pose a serious threat to the integrity of the Recovery
            Act-funded portion of EPA’s Clean Diesel Finance Program. Consequently, EPA
            should consider suspension and debarment of CSS on current and future awards
            under 2 CFR Part 180.

            To address the financial management issues identified during our review, CSS
            should establish controls to ensure that the use of funding provided under the CA
            complies with 40 CFR Part 30.21. These controls should ensure (1) accurate,
            current, and complete disclosure of the financial results of the revolving loan
            program; (2) records identifying the source and application of funds provided



12-R-0749                                                                                     12
            under the CA; and (3) effective control over and accountability for all funds,
            property, and other assets of the EPA-funded revolving loan program.

            EPA should also impose special conditions on all current and future awards of
            EPA funds as outlined in 40 CFR Part 30. Title 40 CFR Part 30.14, Special
            Award Conditions, states:

                   If an applicant or recipient: has a history of poor performance, is
                   not financially stable; has a management system that does not meet
                   the standards prescribed in Circular A-110; has not conformed to
                   the terms and conditions of a previous award; or is not otherwise
                   responsible, EPA may impose additional requirements as needed,
                   provided that such applicant or recipient is notified in writing as to:
                   the nature of the additional requirements, the reason why the
                   additional requirements are being imposed, the nature of the
                   corrective action needed, the time allowed for completing the
                   corrective actions, and the method for requesting reconsideration
                   of the additional requirements imposed.

            The special conditions should include (1) payment on a reimbursement basis and
            (2) EPA review and approval of reimbursement requests prior to payment.

Recommendations
            We recommend that the Director for the Office of Grants and Debarment:

                   1. 	 Disallow and recover $9 million in questioned costs claimed under CA
                        2A-83440701. If CSS provides documentation that meets appropriate
                        federal financial management requirements and shows that some or all
                        of the questioned costs are allocable and allowable to the CA, the
                        amount to be recovered should be adjusted accordingly.

                   2. 	 Consider suspension and debarment of CSS on current and future
                        awards under 2 CFR Part 180.

                   3. 	 Require CSS to establish controls that ensure the use of funding
                        provided under the CA is in compliance with 40 CFR Part 30.21. The
                        controls should ensure:

                           a.	 Accurate, current, and complete disclosure of the financial
                               results of the revolving loan program funded under the CA.
                           b.	 Records that identify adequately the source and application of
                               funds provided under the CA.
                           c.	 Effective control over and accountability for all funds,
                               property, and other assets of the EPA-funded revolving loan
                               program.


12-R-0749                                                                                    13
                   4. 	 Require that the following special conditions be included for future
                        EPA awards to CSS until EPA determines that the recipient has met all
                        applicable federal financial management requirements:

                           a.	 Payment on a reimbursement basis.
                           b.	 Review and approval by the EPA project officer of
                               reimbursement requests, including all supporting
                               documentation for the claims prior to payment.

                   5. 	 Provide clarifying guidance to CSS on financial and other project
                        information required to be included in quarterly progress reports and
                        request the recipient to submit corrected progress reports as
                        appropriate for prior quarters of the project period.

EPA and Recipient Comments
            The OIG received comments on the draft report from EPA’s Office of Grants and
            Debarment and CSS. CSS also provided supplemental documentation as support
            for its comments. The supplemental documentation is not included in the report
            but is available upon request.

            The Agency generally agreed with the accuracy of the report findings and said
            that it has initiated corrective actions to address some of the weaknesses identified
            in the draft report. The Agency explained that it changed CSS’ status from
            advance to reimbursement payments for active assistance agreements to restrict
            access to available federal funds and placed a stop work order on the SmartWay
            Three Finance Program Agreement. The Agency noted that, in response to the
            CSS’ 2010 single audit, the recipient acknowledged the limitations of its
            accounting system and indicated that significant resources have been invested to
            upgrade its information and accounting processes. The Agency further explained
            that it is imperative for EPA to determine whether CSS has made the necessary
            corrections in order to continue financing for the SmartWay Three Program and
            releasing available funding for other assistance agreements with the recipient. As
            a result, the Agency requested that the OIG perform a follow-up review of CSS’
            financial system and controls. EPA’s complete written response is in appendix A.

            Recommendation 5 was added after receipt of comments from EPA and CSS.
            EPA agreed to the recommendation and commented that, prior to the OIG’s
            review of the CA, it provided additional guidance to CSS on reporting. EPA
            requested CSS provide additional project level information, including a
            breakdown of funding sources and an update of “Phase 2” of the cooperative
            agreement. EPA also reiterated the need to continue reporting on projects until the
            CA is closed out.




12-R-0749                                                                                       14
            CSS disagreed with all but one of the findings and recommendation 2 in chapter 3
            of the draft report. CSS neither agreed or disagreed with recommendations 1 and
            3. CSS disagreed primarily because it believed that it has complied with all
            federal financial management requirements and shown all costs to be allocable
            and allowable under the CA. With regard to recommendation 4, CSS said that it
            concurred with a caveat that regional awards be exempt. CSS explained that the
            special conditions under recommendation 4 should not be placed on regional
            awards because these funding agreements are straightforward to administer and
            EPA has never had questions concerning the recipient’s implementation of the
            awards. CSS’ complete written response is in appendix B.

OIG Response
            We agree with the Agency’s initial corrective actions to address some of the
            findings and will perform the requested follow-up review of CSS’ financial
            system and controls. The Agency will need to provide a proposed management
            decision for full resolution of the findings and recommendations in response to
            this report.

            CSS’ comments and supplemental documentation did not resolve the financial
            management issues discussed in the draft report. Therefore, our position on the
            findings and recommendations generally remains unchanged. We made two
            changes to the report based on CSS’ comments. First, we revised the report to
            more clearly explain that we were unable to reconcile $6.7 million in draws with
            expenditures made under the CA both because the CA funding was recorded in
            general ledger accounts and deposited into bank accounts that included funds
            from other sources. Second, we added a recommendation that the Agency provide
            clarifying guidance to CSS on the content of quarterly progress reports and
            request the recipient to submit corrected reports as appropriate.

            The full text of our response is embedded as text boxes in CSS’ complete written
            response in appendix B.




12-R-0749                                                                                     15
                                   Chapter 4

            Procurements Did Not Meet Federal or 

                  Recipient Requirements 

            CSS’ procurements under the CA did not meet federal requirements or the
            organization’s procurement policy. Truck and emissions control equipment
            procurements did not meet competition or cost and price analysis requirements of
            40 CFR Part 30 or CSS’ procurement policy. In addition, procurements of pre-
            2007 model year (MY) trucks did not meet emission requirements specified by
            the CA. As a result, we were unable to determine whether reported total
            procurement costs of $8,982,000 for trucks and equipment are fair and reasonable,
            and pre-2007 MY trucks procured at a total cost of $1,915,918 are not allowable
            under the CA. We found two primary causes for the procurement issues. First,
            CSS staff believed that CSS followed procurement guidelines provided by the
            first project officer for the CA. Second, CSS had not received anticipated grant
            funding for retrofitting the pre-2007 MY trucks.

Procurements Did Not Meet Requirements
            Truck and emission control equipment procurements did not meet requirements of
            40 CFR Part 30 or CSS’ procurement policy. CSS procured trucks without
            following a formal and documented competitive process. CSS also did not
            document cost or price analyses for procurements of truck emission control
            equipment.

            Title 40 CFR Part 30 includes procurement standards that apply to the CA award.
            Title 40 CFR Part 30.43 requires all recipient procurement transactions to be
            conducted in a manner that provides, to the maximum extent practical, free and
            open competition. Title 40 CFR Part 30.45 also requires some form of a cost or
            price analysis to be made and documented in the procurement files for every
            procurement action. Minimum documentation requirements for purchases
            exceeding $100,000 are specified by 40 CFR Part 30.46. Under 40 CFR Part 30.46,
            the recipient’s procurement records and files are required to include at a minimum
            the (1) basis for selection, (2) justification for lack of competition, and (3) basis for
            the award cost or price. Similar to 40 CFR Part 30, CSS’ procurement policy
            requires a formal bid process and retention in the transaction records of
            documentation on the selection process for procurements of $50,000 or greater.

            Our review of a judgmental sample of 4 of CSS’ 27 completed truck procurement
            actions with costs exceeding $100,000 for the period September 28, 2009, through
            June 9, 2010, disclosed that the purchases did not meet competition and
            documentation requirements. The sample represented $3,303,337 million of
            $10,477,704 in total costs incurred for the 27 procurement actions. Supporting
            documents for the sample generally consisted of the invoices and payment records


12-R-0749                                                                                        16
            for the procurements. The supporting records did not include the cost or price
            analysis documentation specified by 40 CFR Part 30.45 or the competition and
            other documentation specified by 40 CFR Part 30.46 and CSS’ procurement
            policy.

            We also reviewed a judgmental sample of 11 out of 472 truck emission control
            equipment procurements with costs below $100,000 for the period ending
            December 31, 2011. The sample represented $163,193 of $4,987,923 in reported
            costs incurred for truck emission control equipment. CSS procured the emission
            equipment upgrades for trucks owned by truck operators or trucking companies.
            Supporting documents for the sample generally consisted of the invoices for the
            procurements and calculation documents showing repayment amounts for the
            recipients of the equipment. CSS’ documentation associated with the
            procurements did not show that a cost or price analysis had been conducted.
            According to CSS management, CSS did conduct a cost or price analysis for
            equipment procurements, but the analysis was not documented. We did not
            expand the sample because of the other material deficiencies with CSS’ financial
            management system discussed earlier in this report.

            CSS’ progress report for the quarter ending December 31, 2010, identified that
            $8,982,000 in CA funding had been spent on truck and emission control
            equipment procurements. We were unable to determine whether these
            procurement costs are fair and reasonable because CSS did not meet the
            procurement requirements of 40 CFR Part 30 or its internal policy.

            In response to these procurement issues, CSS staff said that CSS followed
            procurement guidelines provided by the first project officer for the CA. As
            support, CSS staff provided an April 2010 e-mail from the first project officer
            disclosing these guidelines. The first project officer stated in the e-mail:

                   …CSS’ lease program allows drivers to either 1) select their
                   vehicle from a list of eligible vehicles offered by a number of
                   dealers or 2) present a vehicle that is eligible under CSS’ program
                   requirements. Given CSS’ lease program parameters, this approach
                   sounds reasonable in trying to ensure open competition for
                   selecting the most appropriate vehicles. Again, all procurement
                   transactions should provide, to the maximum extent practical, open
                   and free competition.

            The first project officer is no longer employed by EPA. Therefore, we were
            unable to discuss the e-mail with this project officer. However, the project
            officer’s e-mail does not instruct CSS to ignore the cost or price analysis
            documentation requirement specified by 40 CFR Part 30.45, the competition and
            other documentation requirements specified by 40 CFR Part 30.46, or the
            organization’s procurement policy.




12-R-0749                                                                                     17
Procurement of Pre-2007 Model Year Trucks Did Not Meet CA
Requirements
            CSS did not install emission control technologies on pre-2007 MY trucks as
            required by the CA. Programmatic Condition 3.1.G of the CA specifies that CSS
            may use the funding under the award to purchase or lease pre-2007 MY
            on-highway vehicles, used engines, and used pieces of equipment as long as
            verified emission control technologies have been installed. CSS’ progress report
            for the quarter ending December 31, 2010, submitted to EPA, identified that
            $1,915,918 in CA funds were used to procure 227 pre-2007 MY trucks. The
            quarterly report also disclosed that these trucks had not been retrofitted with
            emission control technologies because CSS had not received anticipated grant
            funding for the retrofits from California. According to CSS staff, retrofitting the
            trucks may not be economically viable because the cost of the emission control
            equipment exceeds the value of the trucks.

            The $1,915,918 in costs incurred by CSS for the pre-2007 MY trucks are not
            allowable under the CA because required emission control technologies have not
            been installed. The progress report for the quarter ending December 31, 2010
            disclosed that CSS may remove the pre-2007 MY trucks from the revolving fund
            program and replace them with trucks that meet the CA requirements to resolve
            the issue. At the time of our field work, EPA was working with CSS to resolve the
            issue.

Recommendations

            We recommend that the Director for the Office of Grants and Debarment:

               6.	 Require CSS to comply at a minimum with 40 CFR Part 30 for past and
                   future procurements under the CA. Specifically, require CSS to:

                       a.	 Maintain in the procurement records the minimum documentation
                           specified by 40 CFR Part 30.46 for procurements exceeding
                           $100,000.
                       b.	 Conduct and maintain in the procurement records a cost or price
                           analysis for every procurement action as required by 40 CFR Part
                           30.45.

               7. 	 Disallow the pre-2007 MY trucks as project costs under the EPA-funded
                    revolving loan program unless CSS provides EPA with documentation
                    verifying that the trucks have been retrofitted with emission control
                    devices as specified by the CA.




12-R-0749                                                                                     18
EPA and Recipient Comments
            The OIG received comments on the draft report from EPA’s Office of Grants and
            Debarment and CSS. CSS also provided supplemental documentation as support
            for its comments. The supplemental documentation is not included in the report
            but is available upon request.

            The Agency generally agreed with the accuracy of the findings of the report and
            said that it has initiated corrective actions to address some of the weaknesses
            identified in the draft report.

            CSS acknowledged that it did not comply with applicable procurement
            requirements for both truck and equipment expenditures. CSS said that it did not
            comply because it did not believe the requirements were applicable. CSS
            explained that it does not consider itself as the procurer but rather an agent acting
            on behalf of its customers who select the trucks and equipment for purchase. CSS
            said that it now understands that the OIG and EPA consider its truck and
            equipment expenditures to be subject to the procurement requirements of 40 CFR
            Part 30. With regard to the pre-2007 MY trucks, CSS said that the retrofits were
            significantly delayed because it did not receive anticipated California Air
            Resources Board funding for the emission control equipment.

            CSS did not specifically state whether it agreed with recommendation 6, but CSS’
            comments indicate concurrence. CSS said that it retroactively complied with
            EPA’s procurement requirements and included documentation presenting the
            results with its response to the draft report. CSS also said that, in the future, it will
            maintain the minimum required documentation for procurements exceeding
            $100,000 and conduct a cost or price analysis for every procurement action.

            CSS strongly disagreed with recommendation 7. CSS said the EPA project officer
            expressly approved the purchase of the pre-2007 MY trucks with the condition that
            the trucks would be retrofitted at a later date. CSS also said that it is in the process
            of retrofitting the trucks, and the retrofits will be completed by June 17, 2012.

            CSS’ complete written response is in appendix B.

OIG Response
            We agree with the Agency’s initial corrective actions to address some of the
            findings in the draft report. The Agency will need to provide a proposed
            management decision for full resolution of the findings and recommendations in
            response to this report.

            CSS’ comments and supplemental documentation did not resolve the procurement
            issues discussed in the draft report. Therefore, our position on the findings and
            recommendations remains unchanged. With regard to CSS’ comment that it


12-R-0749                                                                                         19
            retroactively complied with EPA’s procurement requirements for past
            procurements, we were unable to verify whether the corrective actions
            satisfactorily resolve the documentation and analyses issues because sufficient
            information and supporting documentation was not included in the response to the
            draft report. CSS’ current plan to retrofit the pre-2007 MY trucks by June 2012
            will not achieve emissions standards over the long-term. According to CSS, the
            retrofits provide emission control equipment that is only valid for approximately
            6 months. As a result, expenditures for the pre-2007 MY trucks do not represent
            effective and efficient use of Recovery Act funds and are not reasonable costs
            under the CA.

            The full text of our response is embedded as text boxes in CSS’ complete written
            response in appendix B.




12-R-0749                                                                                  20
                                  Chapter 5

 Job Reporting Does Not Comply With OMB Guidance
            CSS’ reporting of jobs created or retained with Recovery Act funds did not
            comply with OMB reporting guidance. The Recovery Act requires quarterly
            reporting for the number of jobs created and retained with Recovery Act funding.
            OMB guidance on Recovery Act quarterly reporting requirements specifies that
            the estimated total number of jobs funded is to be reported by recipients. The
            guidance also specifies that information should be collected from all subrecipients
            and vendors, to the maximum extent possible, to generate the most
            comprehensive and complete job impact numbers available. CSS incorrectly
            calculated the number of jobs created or retained for quarterly reports covering
            the period October 2009 through June 2010 by including in its computations
            (1) CSS labor hours funded with income from the revolving fund program and
            (2) full-time equivalent (FTE) positions of truck operators for trucks procured by
            CSS with Recovery Act funding and subsequently leased to the operators.

            Under the OMB reporting guidance, CSS labor hours should not have been
            included in the computation of the number of jobs created or retained because
            they were not funded through the Recovery Act. The FTE truck operator positions
            should not have been included in the computation because the operators for the
            leased trucks are beneficiaries rather than recipients or subrecipients of Recovery
            Act funding. As a result, CSS overstated the number of jobs created or retained
            with Recovery Act funds during the period October 2009 through June 2010. For
            example, we found that CSS overstated the number of jobs created or retained by
            79 FTE for the quarter ended December 31, 2009.

            According to CSS staff involved in Recovery Act reporting, the number of jobs
            CSS reported as created or retained was based on guidance provided by the EPA
            project officer for the CA award. The CSS staff said that the first EPA project
            officer for the award agreed with CSS’ reporting methodology. The staff explained
            that the project officer’s rationale for agreeing to the methodology was that (1)
            income from the revolving loan program was the result of Recovery Act funding,
            and (2) FTE positions of operators for trucks leased by CSS capture the essence of
            jobs retained as a result of Recovery Act funding. We were unable to confirm
            whether EPA agreed to or approved CSS’ reporting methodology because the first
            project officer for the award is no longer employed by EPA. Neither the current
            project officer nor EPA management associated with the award were aware of the
            first project officer’s guidance on Recovery Act reporting provided to CSS.

            OMB’s Recovery Act guidance requires that recipients of Recovery Act funding
            maintain corrections to erroneous and missing data submitted in prior quarterly
            reports in their administrative records. The guidance also requires that recipients




12-R-0749                                                                                     21
            submit the corrections to the federal government at a time to be specified in the
            future.

Recommendations

            We recommend that the Director for the Office of Grants and Debarment:

                   8. 	 Assist CSS with developing a methodology for calculating the number
                        of jobs created or retained for quarterly reports that meets OMB
                        guidance on Recovery Act reporting.

                   9. 	 Direct CSS to correct the number of jobs created or retained in the
                        quarterly reports covering the period October 1, 2009, to June 30,
                        2010, and all subsequent periods with job reporting errors, to comply
                        with OMB guidance on Recovery Act reporting.

                  10. Direct CSS to maintain the corrected jobs documentation referenced in
                      recommendation 8 in the administrative records and submit the
                      corrections to the federal government after a schedule has been
                      established by future Recovery Act guidance.

EPA and Recipient Comments
            The OIG received comments on the draft report from EPA’s Office of Grants and
            Debarment and CSS. The Agency generally agreed with the accuracy of the
            findings and said that it has initiated corrective actions to address some of the
            weaknesses identified in the draft report. However, CSS disagreed with the
            findings and said that it had followed EPA’s methodology and guidance on
            reporting the number of jobs created or retained with Recovery Act funds. CSS
            explained that the EPA program office had agreed to its methodology after the
            recipient had proactively sought guidance from EPA on Recovery Act reporting.
            CSS also said that it believed the methodology it was using was appropriate and
            correct because EPA was approving the quarterly Recovery Act reports.

            Although CSS disagreed with the findings, the recipient said it stands ready to
            collaborate with EPA to implement the recommendations. CSS’ complete written
            response is in appendix B.

OIG Response
            We agree with the Agency’s initial corrective actions to address some of the
            findings in the draft report. The Agency will need to provide a proposed
            management decision for full resolution of the findings and recommendations in
            response to this report.




12-R-0749                                                                                       22
            CSS’ comments did not resolve the Recovery Act reporting issues discussed in
            the draft report. We were unable to confirm whether EPA agreed with CSS’
            reporting methodology because the first project officer is no longer employed by
            the EPA as discussed in the draft report. With regard to CSS’ comment on EPA’s
            approval of its Recovery Act reports, EPA staff did not verify that the number of
            jobs created or retained in the reports were correct and met the OMB guidance on
            Recovery Act quarterly reporting. Therefore, our position on the findings and
            recommendations remains unchanged.

            We agree that CSS should collaborate with EPA to implement the
            recommendations. The full text of our response is embedded as text boxes in
            CSS’ complete written response in appendix B.




12-R-0749                                                                                  23
                            Status of Recommendations and
                              Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                              Planned
 Rec.   Page                                                                                                 Completion   Claimed    Agreed To
 No.     No.                         Subject                          Status1        Action Official            Date      Amount      Amount

  1      13    Disallow and recover $9 million in questioned costs      U       Director, Office of Grants                $9,000
               claimed under CA 2A-83440701. If CSS provides                        and Debarment
               documentation that meets appropriate federal
               financial management requirements and shows
               that some or all of the questioned costs are
               allocable and allowable to the CA, the amount to
               be recovered should be adjusted accordingly.

  2      13    Consider suspension and debarment of CSS on              U       Director, Office of Grants
               current and future awards under 2 CFR Part 180.                      and Debarment

  3      13    Require CSS to establish controls that ensure the        U       Director, Office of Grants
               use of funding provided under the CA is in                           and Debarment
               compliance with 40 CFR Part 30.21. The controls
               should ensure:
                  a. Accurate, current, and complete disclosure
                     of the financial results of the revolving loan
                     program funded under the CA.
                  b. Records that identify adequately the source
                     and application of funds provided under the
                     CA.
                  c. Effective control over and accountability for
                     all funds, property, and other assets of the
                     EPA-funded revolving loan program.

  4      14    Require that the following special conditions be         U       Director, Office of Grants
               included for future EPA awards to CSS until EPA                      and Debarment
               determines that the recipient has met all applicable
               federal financial management requirements:
                  a. Payment on a reimbursement basis.
                  b. Review and approval by EPA project officer
                     of reimbursement requests, including all
                     supporting documentation for the claims
                     prior to payment.

  5      14    Provide clarifying guidance to CSS on financial and      U       Director, Office of Grants
               other project information required to be included in                 and Debarment
               quarterly progress reports and request the recipient
               to submit corrected progress reports as appropriate
               for prior quarters of the project period.

  6      18    Require CSS to comply at a minimum with 40 CFR           U       Director, Office of Grants
               Part 30 for past and future procurements under the                   and Debarment
               CA. Specifically, require CSS to:
                  a. Maintain in the procurement records the
                     minimum documentation specified by
                     40 CFR Part 30.46 for procurements
                     exceeding $100,000.
                  b. Conduct and maintain in the procurement
                     records a cost or price analysis for every
                     procurement action as required by 40 CFR
                     Part 30.45.




12-R-0749                                                                                                                                   24
                                                                                                                              POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                  Planned
 Rec.      Page                                                                                                  Completion   Claimed    Agreed To
 No.        No.                         Subject                           Status1        Action Official            Date      Amount      Amount

  7         18    Disallow the pre-2007 MY trucks as project costs          U       Director, Office of Grants
                  under the EPA-funded revolving loan program                           and Debarment
                  unless CSS provides EPA with documentation
                  verifying that the trucks have been retrofitted with
                  emission control devices as specified by the CA.

  8         22    Assist CSS with developing a methodology for              U       Director, Office of Grants
                  calculating the number of jobs created or retained                    and Debarment
                  for quarterly reports that meets OMB guidance on
                  Recovery Act reporting.

  9         22    Direct CSS to correct the number of jobs created or       U       Director, Office of Grants
                  retained in the quarterly reports covering the period                  and Debarment
                  October 1, 2009, to June 30, 2010, and all
                  subsequent periods with job reporting errors, to
                  comply with OMB guidance on Recovery Act
                  reporting.

 10         22    Direct CSS to maintain the corrected jobs                 U       Director, Office of Grants
                  documentation referenced in recommendation 8 in                       and Debarment
                  the administrative records and submit the
                  corrections to the federal government after a
                  schedule has been established by future Recovery
                  Act guidance.




      1	    O = recommendation is open with agreed-to corrective actions pending
            C = recommendation is closed with all agreed-to actions completed
            U = recommendation is unresolved with resolution efforts in progress




12-R-0749                                                                                                                                       25
                                                                                        Appendix A

                   Agency’s Comments on Draft Report


 
                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                               WASHINGTON, D.C. 20460
 
 
                                                                                          OFFICE OF
                                                                                       ADMTNISTRATION
                                                                                       AND RESOURCES
                                                                                         MANAGEMENT
 
 
                                            February 3, 2012
 
 
    MEMORANDUM
 
 
 
    SUBJECT:    Comments on Draft Attestation Report, "Examination of Costs Claimed Under EPA
                Cooperative Agreement 2A-83440701 Awarded Under the Recovery Act to Cascade
                Sierra Solutions" Project No. OA-FY11-A-0062
 
    FROM:       Howard Corcoran, Director
                Office of Grants and Debarment
     
         TO:            Robert Adachi, Director
                        Forensic Audits
     
     
     
         Thank you for the opportunity to review and comment on the factual accuracy of the
         subject Office of Inspector General Draft Attestation Report dated December 20, 2011.
         We sincerely appreciate your prompt and comprehensive examination of this matter. Based
         on our review of the Draft Report and information available at this time, we generally
         agree with the accuracy of the findings in the Report.
     
         The agency has initiated corrective actions to address some of the weaknesses identified in
         the Draft Report. The agency has placed CSS on reimbursement status for the active
         assistance agreements to restrict access to available federal funds.
     
         In addition, the agency has placed a stop work order for the Smartway Three Finance
         Program Agreement DE-83469401, until CSS can demonstrate that their financial
         system can effectively record and report the source and application of funds associated
         with the grant project.


    12-R-0749                                                                                      26
     


            In response to their 2010 single audit, CSS acknowledged the limitations of their
            accounting system identified in that report and indicated that they have invested significant
            resources to upgrade their information and accounting processes, including an integrated
            database system that will provide the additional reporting capabilities they need. CSS
            responded that they have added staff and provided training to improve their recording,
            tracking and reporting capabilities of their lease and loan programs. In addition, CSS
            responded in their single audit that they have created a Grant Compliance Department to
            implement the internal controls needed to manage and document their assistance agreement
            activities. In a November, 2011 meeting, CSS reiterated these improvements
            to the agency.
     
At present, the agency is unable to determine if the OIG fieldwork for its draft report takes into
account the improvements that CSS has reportedly made in response to their single audit. Many of
the weaknesses and corrective actions identified in the 2010 CSS single audit are similar to those
identified in the OIG Draft Report.
 
In order to continue with financing the Smartway Three Program as well as release existing
available funds for other headquarters assistance agreements with CSS, it is imperative that the
agency determine whether CSS has made these necessary corrections to their financial systems and
organization and whether the improvements are effective in correcting the weaknesses identified
going forward.
 
Accordingly, the agency respectfully requests that the OIG perform a follow up review of CSS'
financial systems and controls. The OIG is best equipped to perform this assessment since it
conducted the onsite review identifying the weaknesses in CSS' financial systems and therefore
would be in a position to more quickly determine whether CSS has corrected the system
weaknesses. The intent of the follow up review would be to assess if CSS' financial system can
adequately:
 
           •	 Provide a current and complete disclosure of the financial results of CSS'

              assistance agreements with the agency;

           •	 Identify the source and application of grant funds; and
           •	 Provide control over all funds, property and assets associated with EPA 

              assistance agreements.

     
        By obtaining this information the agency will be able to determine whether the EPA 

        should continue its Smartway assistance agreements with CSS.

     
        Thank you once again for the opportunity to comment on the Draft Report and for your review
        of the recipient's claimed costs. If you have any questions concerning this matter, please feel
        free to contact Joe Lucia, the Office of Grants and Debarment's assistance agreement Audit
        Follow-up Coordinator. You may reach Joe by email at lucia.joseph@epa.gov, or by phone at
        202-564-5378.
     




    12-R-0749                                                                                             27
 cc: 	   Nanci Gelb
         Wendel Askew
         Don Flattery
         Gayle Jefferson
         Denise Sirmons
         Phil Schindel
         Kysha Holliday
         Joe Lucia
         Carl Davis
         Jessica Durand
         Tyler Cooley
         Rosalva Tapia




12-R-0749                  28
                                                                             Appendix B


       CSS’s Comments on the Draft Report and OIG 

                     Evaluation 

The response from CSS is provided verbatim. OIG responses to those comments have been
inserted in text boxes.




                            Examination of Costs Claimed

                    Under EPA Cooperative Agreement 2A-83440701 

                           Awarded Under the Recovery Act 

                             to Cascade Sierra Solutions


                              Project No. OA-FY11-A-0062 





                          Response of Cascade Sierra Solutions 


                                    February 21, 2012 



12-R-0749                                                                               29
Examination of Costs Claimed Under EPA Cooperative Agreement 2A-83440701 Awarded
   Under the Recovery Act to Cascade Sierra Solutions, Project No. OA-FY11-A-0062



                            Comments of Cascade Sierra Solutions



I.     Introduction

        Cascade Sierra Solutions (CSS) appreciates the opportunity to submit these comments on
the Environmental Protection Agency (EPA) Office of Inspector General’s (OIG) Draft
Examination of Cost Claimed Under EPA Cooperative Agreement 2A-83440701 Awarded
Under the Recovery Act to Cascade Sierra Solutions (OIG Draft Report). Cooperative
Agreement 2A-83440701 (the CA), which was CSS’s second award under EPA’s National
SmartWay Finance Program (SWFP), awarded $9 million to CSS under the American
Reinvestment and Recovery Act of 2009 (ARRA or the Recovery Act) for the purpose of
creating a national revolving loan program for heavy-duty diesel trucks to save fuel and reduce
diesel emissions. The CA project period originally covered June 1, 2009 to October 31, 2011, but
has been extended by EPA through October 31, 2012. OIG’s audit of CSS commenced on March
7, 2011 and was conducted for the purpose of determining whether CSS complied with the terms
of the CA, ARRA, and applicable EPA and OMB regulations.

        CSS takes its responsibility to comply with all applicable federal requirements very
seriously and thus finds the OIG Draft Report’s results to be very troubling. Because of this, CSS
has communicated with EPA about the audit’s findings and an appropriate response to the audit.
For this reason, CSS, in this document, responds comprehensively to the issues raised by the
audit.

II.    Cascade Sierra Solutions and EPA

        CSS has an extensive relationship with the EPA SmartWay Program because its focus on
promoting the use of EPA SmartWay Verified Technologies to save diesel fuel and reduce diesel
emissions strongly aligns with the mission of EPA’s Clean Diesel Program. The CA that is the
subject of this audit is only one of several grants that CSS has been awarded by EPA. At present,
in addition to the CA, CSS administers six other SmartWay awards—two other active SmartWay
National Finance Program Awards, which help implement the revolving loan fund, and four
other regional SmartWay awards, under which CSS provides incentives for the installation of




12-R-0749                                                                                      30
emission control equipment and fuel saving technologies.1 All told, under its ten past and active
SmartWay awards, CSS has successfully administered over $15.7 million in EPA funds.

         CSS is a leader in modernizing the American heavy-duty diesel fleet. As a not-for-profit
organization dedicated to lending money to Independent Owner Operators who do not have
ready access to credit, CSS is playing a crucial role in modernizing the heavy-duty diesel fleet
that is not replicated elsewhere in the U.S. CSS’ mission and focus on modernizing the diesel
fleet is critical because of its wide-ranging effects: it improves air quality and public health,
reduces American dependence on foreign oil, and creates jobs for small- and minority-owned
businesses.

        Because of its success, CSS is a bright light in EPA’s SmartWay Program and national
efforts to reduce diesel emissions. In less than five years, CSS has retrofitted more than 7,000
vehicles across the nation to improve their fuel efficiency and reduce the harmful exhaust
emissions they produce. The retrofitted vehicles now save more than 30,000 gallons of diesel
fuel per day and have collectively saved over 35 million gallons to date. Each retrofitted vehicle
will, on average, over the course of its lifetime, reduce its emissions of CO2 by 350 metric tons,
particulate matter by 289 pounds, and NOx by 5,000 pounds, and eliminate $12,500 in health
care costs that would otherwise be incurred because of air pollution. CSS is not merely adding
cleaner vehicles to the fleet; CSS is transforming the fleet. Because of its revolving loan fund,
CSS has already removed thousands of old, fuel-inefficient, and polluting vehicles that would
have remained on American roadways for up to 25 years each, and as the fund revolves, more
benefits continue to accrue.

        CSS’ success particularly stands out because of the results that CSS has achieved within
the SmartWay program. As the only three-time recipient of a SmartWay Finance Award, CSS
has, by far, put more clean trucks on the nation’s roads than any of the other SmartWay Finance
participants. To CSS’ knowledge, CSS has reduced more emissions than any other organization
participating in the SmartWay Finance Program. Further, CSS has achieved its results over a
very short time period and against the backdrop of a difficult national economy. With respect to
the CA, which was granted under ARRA to stimulate the national economy, CSS deployed the
majority of the $9 million in CA funds to eligible projects within three months of receipt of those
funds. CSS has delivered impressive results under challenging circumstances.

        CSS’ outstanding results are possible because of the innovative nature of CSS’ revolving
loan fund, which utilizes a model that leverages federal dollars by up to a 16-to-1 ratio with
private sector dollars. In a time of reduced government budgets, the CSS public-private
revolving loan fund program is a model for the future, and should not be criticized because it
breaks the mold of government accounting regulations.

       CSS’ revolving loan fund program, funded by the CA, is the first of its kind. CSS has
achieved great success because of its unique and innovative public-private revolving loan fund


        1
         The SmartWay Finance Awards are Award Nos. DE-83412001 and DE-83469401, and the Regional
Awards are Award Nos. 2A-96114901 (Region 1), 2A-97232501 (Region 2), DE-00F11201 (Region 6), and DE-
00J606801 (Region 10).


12-R-0749                                                                                               31
model. Because the trucking industry is a high-risk industry, many financial institutions are
unwilling to provide financing to Independent Owner Operators (IOOs) or small fleets, and thus,
significant barriers to capital exist. CSS sought to break down this barrier in the credit markets
by developing a revolving loan program that finances SmartWay-eligible equipment for IOOs
and small fleets. The CSS revolving loan fund overcomes the market’s inability to provide
financing to these borrowers by utilizing EPA funds to mitigate the credit risk associated with
financing eligible truck replacement and after-market upgrade projects, thereby encouraging
private lenders to participate in the market for small trucking businesses.

        CSS knows of no other program that pairs public and private money through a revolving
loan fund that multiplies the effect of federal dollars and continually replenishes itself. Because
of the leveraging of private sector funds, the CSS model is unlike that used by EPA under the
Clean Water Act Revolving Fund. After only a very short period of implementation of the CSS
revolving loan fund, both CSS and the EPA Program Office agreed that the public-private
revolving loan fund model is a very efficient use of government resources that represents a new
and better way to implement public-private partnerships.

          However, CSS’ success has not come without struggles and hard work. Although CSS
has gotten the revolving loan fund model to function sustainably—it now has several lenders that
actively participate in making CSS loans on an ongoing basis—CSS has found it challenging to
fit its revolving loan fund program into EPA’s existing grant regulations. For instance, the design
of the CSS revolving loan fund, as proposed to EPA, blends public and private dollars in
individual financing agreements, and does not rely on traditional segregation of fund principles.
Also, the subordination of EPA funds to private sector funding initially raised questions
concerning the Federal Government’s property standards. Through discussion with CSS, EPA
Program Administrators addressed these issues within CSS’ third SmartWay Finance (SW3)
award and amended the SW3 agreement as necessary. The development of the SmartWay
Finance program began when EPA Program Administrators approached CSS regarding the
success of the Everybody Wins equipment leasing program and consulted with CSS on the
development of the SmartWay Finance program. In acknowledgement of these challenges, and
the fact that CSS is the first public-private revolving loan fund that EPA has overseen, CSS has
invested substantial time and energy in consulting with EPA regarding how to best implement its
model.

        In demonstrating the Everybody Wins program, and in consulting on the development of
the SmartWay Finance program, CSS and EPA reached agreement on the concept of the blended
loan. By blending EPA grant funds with loans from private financial institutions and grants from
states and private sources, CSS maximizes the cost effectiveness of EPA funds. This approach
was clearly outlined in CSS’ original proposal for the CA and the SWFP. Customer payments
repay the financial institution’s portion of the loan, and the remaining funds are returned to the
revolving loan fund to finance additional projects.

       CSS has grown rapidly as an organization. Although CSS currently funds
approximately $20 million in loans per year, it is quite young as an organization. CSS was
founded five years ago, in November of 2006 as a one-employee organization. After a year, CSS
had grown to 10 employees, and now CSS has 57 employees.



12-R-0749                                                                                         32
        While CSS’ rapid growth has increased its capacity to finance clean diesel vehicles and
equipment—CSS has now impacted close to 20,000 heavy-duty diesel trucks on the road in the
United States, and plans to do much more—its success has created challenges as well. In order to
keep pace with its steady growth, CSS has had to upgrade its accounting and administrative
databases several times over the past five years. These upgrades have been necessary, but have at
times resulted in delays and required a significant investment of time and administrative
resources to implement. While CSS strongly believes that it has complied with its SmartWay
grant obligations, these technological upgrades have provided an extra set of logistical
challenges for an organization that operates on very limited resources.

        CSS has done, and will continue to do, whatever it takes to makes its program successful,
accountable, and an effective use of taxpayer dollars. Because CSS takes the OIG Draft Report
seriously and values its relationship with EPA’s Program and Grants offices, CSS will respond to
each point raised in the Draft Report, account for all of the grant dollars it was awarded, and
explain in detail the upgrades it has made to track funding and payments and address the
concerns raised in the OIG Draft Report. These upgrades have come as a result of taking
recommendations from prior CSS outside auditor reports and numerous discussions between
CSS and EPA staff.


III.   Comments on Chapter 3 – Financial Management System

       A. Cash Draws Exceeded Cash Needs

        The OIG Draft Report states that CSS cash draws exceeded its immediate cash needs in
violation of Title 40 CFR 30.22(b)’s requirement that cash advances be limited to the minimum
amounts needed and be timed to be in accordance with actual, immediate cash requirements.

        CSS disagrees that its possession of advance funds in 2009 constituted draws in excess of
its immediate needs in violation of Title 40 CFR 30.22. While CSS did have a large amount of
advance funds in its accounts during 2009, that situation was entirely unavoidable for a number
of reasons.

       First, CSS needed advance funds to complete SmartWay projects at the time. In 2009,
CSS did not have sufficient working capital to pre-fund CA projects, and so it requested funds
for CA transactions in advance.

        Second, CSS had to take into consideration EPA’s turnaround time for processing draw
requests under the CA when coordinating several large transactions that CSS entered into with
truck wholesalers in October and November of 2009. This meant that CSS had no choice but to
request the CA funds well in advance of the transactions. For instance, CSS submitted a draw
request for $742,000 on October 7, 2009, and another for $1 million on October 20, 2009, but
EPA did not release the funds to CSS until October 13, 2009, and October 30, 2009, respectively
– six and ten days later. CSS planned to use the funds it drew down to purchase trucks from a
vendor that required CSS to pay for the trucks within two weeks of inspection of the trucks.



12-R-0749                                                                                        33
However, after CSS drew down the advance funds to complete the transaction, the vendor
delayed the inspection date repeatedly without giving CSS advance notice, which delayed the
payment. However, CSS could not forgo the transaction and return the advance funds to EPA,
because it had already placed a $100,000 nonrefundable deposit down on the trucks. The
combination of a short payment window by several vendors, unforeseen delays, and
nonrefundable deposits meant that CSS did not return the advance funds to EPA. Thus, although
CSS was maintaining large amounts of CA funds on hand for a prolonged period of several
weeks, it was necessary to complete several large transactions.

       Third, at the time of these transactions, CSS did not have access to EPA’s Automated
Standard Application for Payments (ASAP) system. Access to the ASAP system would have
eliminated CSS’ need to have advance funds on hand for these large truck purchases, because the
ASAP system reduced EPA’s draw turnaround time to three days. When CSS began using the
ASAP system in November 2009, the advance CA funds that it maintained on hand dropped
dramatically, and by the end of December 2009, the balance of advance funds that CSS
maintained on hand dropped to zero. However, while conducting a number of large truck
purchases in October 2009 and early November 2009, the ASAP system was not available to
CSS, so CSS was required to maintain advance funds on hand.

        CSS recognized at the time that maintaining a large amount of advance CA funds in its
accounts was problematic and actively consulted EPA about resolving the issue. When CSS
raised the issue with its EPA Project Officer, the project officer advised CSS to obtain access to
the ASAP system, which CSS immediately did. CSS also disclosed the situation to CSS’
independent auditors to ensure that they found its use of advance funds to be appropriate.


               i. Subsequent CSS Actions

        As the OIG Draft Report stated, CSS repaid EPA $1,751 for interest the CA funds earned
while present in CSS accounts. CSS understands this, together with CSS’ enrollment in the
ASAP system, to have satisfactorily resolved this issue, and therefore CSS has not taken further
action.

  OIG Response 1. Our position remains unchanged. Regardless of the issues that led to the
  excess cash on hand, CSS’ cash draws exceeded immediate needs by as much as $3,141,127.
  As stated in the report, 40 CFR Part 30.22(b) specifies that cash advances are limited to the
  minimum amounts needed and are to be timed in accordance with the actual, immediate cash
  requirements of the recipient. Title 40 CFR Part 30.22(b) also specifies that the timing and
  amount of cash advances shall be as close as is administratively feasible to the actual
  disbursement by the recipient. As acknowledged in the report, CSS satisfactorily resolved the
  issue by remitting interest earned in excess of $250 to EPA in accordance with 40 Part
  30.22(l). Our report did not recommend any further actions by CSS or EPA.




12-R-0749                                                                                        34
         B. Cash Draws Not Supported as Allocable and Allowable

        The OIG Draft Report states that CSS’ cash draws were not supported by expenditures
under the CA that were allocable and allowable. Noting that CSS must maintain documentation
that adequately identifies the source and application of CA funds, and that CSS must track CA
funds separately from other funds, the OIG Draft Report finds CSS’ documentation to be
inadequate for two reasons. First, it states that the commingling of CA and non-CA funds is
impermissible: “[b]ecause the CA funding was deposited into accounts that included funds from
other sources, we were unable to reconcile . . . deposits with expenditures made under the CA.”
Second, the Draft Report OIG claims that CSS documentation is inadequate because
“documentation and [accounting system entries] did not include notations or coding showing that
the costs were incurred under the CA.” CSS respectfully disagrees with both rationales.


                   i. The Commingling of Funds

        CSS disagrees strongly with OIG’s assertion that CA funds may not be commingled with
non-CA funds, and that such activity means that CSS’ records are not adequate. EPA expressly
approved such commingling by CSS, and nothing in the CA or EPA or OMB regulations
prohibits CSS from doing so. Further, the commingling of funds is an important part of the CSS
business model, and does not prohibit CSS from adequately tracking CA funds or identifying
their source and application.

        First, CSS submitted in its proposal, and EPA expressly approved, an arrangement in
which CSS commingles CA and non-CA funds. The CA work plan that EPA approved plainly
describes this idea with an example of a blended loan comprised of CA and non-CA funds: “The
average purchase price of these new, clean vehicles is $120,000 each, significantly less than
retail market value. Prop 1B grants will pay $50,000 and EPA SmartWay finance funds will pay
the remaining $70,000.”2 Further, CA Programmatic Condition 12.4 states that “[l]oans funded
in whole or in part with direct funding from EPA or program income are subject to these Terms
and Conditions, even if the loan is funded in part by a non-federal source.”3 Thus, the
commingling of CA and non-CA funds was undertaken only after consultation with and the
express approval of EPA.4

        Second, CSS does not find any authority in the CA, ARRA, or EPA or OMB regulations
that requires it to segregate CA funds from non-CA funds. While EPA’s regulations permit EPA
to require the segregation of advance funds,5 EPA did not avail itself of that option by inserting

         2
           CA Revised Work Plan, p.3.
         3
           CA, Programmatic Condition 12.4.
         4
           Further, EPA’s grant disbursement process requires that funds for each of CSS’ regional and national
grants be deposited in the same account, which unavoidably commingles CA and non-CA funds. Although CSS has
established separate bank accounts for different kinds of EPA deposits, the EPA Payment Management System and
the ASAP program maintain a single CSS bank account on file in which all draw requests for each of CSS’ six
active grants are deposited.
         5
           Title 40 CFR Part 30.22(i)(1) states that “[e]xcept for situations [involving advances of federal funds],
EPA shall not require separate depository accounts for funds provided to a recipient or establish any eligibility
requirements for depositories for funds provided to a recipient.”


12-R-0749                                                                                                         35
any segregation requirement into the CA. Even if EPA had required CSS to segregate advance
CA funds from other funds, EPA’s regulations expressly prohibit EPA from requiring CSS to
segregate non-advance CA funds, such as revolved loan funds and program income.6 Neither
ARRA, nor OMB regulations, directly address the question of whether CA and non-CA funds
may be commingled. CSS views the fact that EPA regulations expressly address the
commingling of funds, combined with the EPA Program Office’s approval of CSS’
commingling, to mean that EPA does not require CSS to completely segregate CA funds in order
to maintain adequate documentation of CA funds.

        Third, the ability to commingle funds has allowed CSS to use the CA funds in the most
cost-effective manner possible. Because CSS expressly stated in its workplan, and independently
to EPA, that it desires to stretch the CA funds as much as possible by using them in conjunction
with other funds, CSS frequently uses CA funds and non-CA funds for the same transaction. If
CSS is required to segregate all CSS funds, CSS would be required to maintain three sets of
accounting and financial records in order to continue to operate as it has—one for CA funds, one
for non-CA funds, and another for the combined transaction. This would reduce efficiency, drive
up the administrative costs associated with loans, and correspondingly increase the burden
placed on CSS employees.

  OIG Response 2. We agree that nothing in the CA or applicable federal regulations
  prohibits CSS from commingling CA funds with other funding included in the revolving
  loan program. We also acknowledge that the draft report did not clearly explain the issue
  with the $6.7 million in deposits of CA funds to bank accounts that included funds from
  other sources. Based on CSS’ comments, the report was revised to more clearly explain that
  we were unable to reconcile the $6.7 million in draws with expenditures made under the CA
  because the CA funding was recorded in general ledger accounts and deposited into bank
  accounts that included funds from other sources.

  However, we disagree with CSS’ comment that segregating CA and other funding for the
  revolving loan program would require the recipient to maintain three sets of accounting and
  financial records in order to continue to operate the program. Title 40 CFR Part 30.21(b)(2)
  specifies that recipients’ financial management systems shall provide records that identify
  adequately the source and application of funds for federally sponsored activities. To meet
  this requirement, CSS will need to establish one comprehensive set of general ledger
  accounts for the revolving fund. As discussed in the draft report, CSS has not established this
  account structure in the general ledger for the revolving loan fund.

         Fourth, the commingling of CA funds with non-CA funds does not prevent CSS from
adequately tracking separately or identifying the source and application of CA funds. CSS
SmartWay Finance awards, including the CA, have been audited multiple times by CSS’
independent Certified Public Accountant, reviewed by EPA project officers and program staff,
and examined under an EPA-contracted limited scope audit. CSS has provided each set of
auditors with the same documentation, which included a full listing of the cash disbursements for
the initial $9 million, which is reproduced in Appendix A, and documentation supporting CSS’
       6
           Id.


12-R-0749                                                                                       36
cash advance requests and management procedures. None of CSS’ auditors has claimed that
CSS’ commingling of funds has been problematic, or has found that CSS has failed to track
separately or adequately identify the source and application of CA funds.

        For instance, CSS’ most recent single audit found that “Cascade Sierra Solutions
complied, in all material respects, with the compliance requirements referred to above that could
have a direct and material effect on each of its major federal programs for the year ended
December 31, 2010,” and that the auditor “did not identify any deficiencies in internal control
over financial reporting that [it] consider[s] to be material weaknesses.”7 Given approval in the
past for this approach by EPA and CSS auditors, CSS sees no reason why it should not be
permitted to continue commingling CA and non-CA funds for the few remaining months of the
CA project period.


   OIG Response 3. We disagree that CSS has adequately tracked CA funds separately from
  other grant programs or identified the source and application of CA funds under the
  recipient’s current financial management system. As discussed in the report, CSS’ financial
  management system does not adequately separate the funds and assets accrued as a result of
  the CA. Consequently, we are unable to verify that these funds and assets are being used in
  accordance with the terms and conditions of the CA. We acknowledge that CSS has been
  previously audited by an independent Certified Public Accountant, reviewed by the EPA
  project officer and program staff, and examined under an EPA-contracted limited scope
  audit. However, these reviews either identified deficiencies similar to issues identified in our
  report or were more limited in scope than our examination of CSS’ financial management of
  EPA funding received under the CA.

  Regarding the single audit for the year ended December 31, 2010, the report on this single
  audit provided an opinion of the overall financial position of CSS and did not specifically
  discuss the financial position of the revolving loan program partly funded by the CA. This
  single audit identified five significant deficiencies in internal controls over financial
  reporting and two significant deficiencies in internal controls over compliance. The findings
  included deficient internal controls over general journal preparation, documentation, and
  review and approval, resulting in little or no audit trail for adjustments made by CSS. The
  single audit noted that the possibility existed that erroneous or unauthorized journal entries
  could be posted to the general ledger and not be detected. The single audit also found
  deficiencies in internal controls over grant management for federal awards. These
  deficiencies include the procurement of pre-2007 MY trucks that do not meet the
  requirements of an EPA award. The single audit also identified interest rates that were above
  the rate allowed in the grant agreement for the EPA SmartWay 1 grant.

                                                 -continued-

        7
          Report on Internal Control over Financial Reporting and on Compliance and Other Matters on an Audit of
Financial Statements Performed in Accordance with Government Auditing Standards, p. 3, Cascade Sierra
Solutions Reports and Schedules Required by the Single Audit Act and OMB Circular A-133, Years Ended
December 31, 2010 Statements and Supplemental Information, For the Year Ended December 31, 2010, EIN 20-
4463950.


12-R-0749                                                                                                    37
  OIG Response 3 (continued).
  In response to the significant deficiencies identified by this single audit, EPA designated
  CSS as a high-risk recipient and changed their method of payment from “advanced” to
  “reimbursement with documentation” in October 2011.

  The EPA contracted review was a limited scope review and addressed the draws of EPA
  funds and initial disbursement. We reviewed the contractor’s supporting workpapers but a
  “full listing of cash disbursements for the initial $9 million” cited by CSS was not included.
  The contractor’s workpapers do include a spreadsheet documenting $8,297,395 of
  disbursements through December 31, 2009. These working papers did not show that the
  contractor reconciled the spreadsheet information to the accounting system. The
  contractor’s review also confirmed that CSS had written policies and procedures covering
  financial management, procurement, personnel, and payroll. However, the review did not
  verify that the policies and procedures were being implemented. The working papers
  showed that the contractor performed a general review of CSS’ financial management, but
  did not verify that the recipient was able to determine the financial position on the
  revolving loan fund.

  Regarding CSS’ comment that it provided each set of auditors with the same
  documentation, we acknowledge that we received the same listing or spreadsheet of
  expenditures the EPA contractor used to review draws under the CA. However, as
  discussed earlier in this OIG response, the contractor’s working papers did not show that
  the spreadsheet information was reconciled to the accounting system. We also note that the
  listing of the cash disbursements for the initial $9 million included in appendix A of CSS’
  response to the draft report is not an accurate reproduction of the listing of expenditures
  provided to the EPA contractor or the OIG during the audit. The listing provided to the
  EPA contractor and the OIG included expenditures for only 2009. However, the listing in
  appendix A includes expenditures for 2009 and 2010. Regardless of the difference between
  the listings, we were unable to reconcile the information in the listings to the accounting
  system and to verify that the draws were used for expenditures meeting the terms and
  conditions of the CA.




                      1. Subsequent CSS Actions

        During OIG’s audit, OIG suggested an alternative financial structure for the revolving
loan fund that would permit CSS to completely segregate CA funds from non-CA funds. Under
OIG’s suggested approach, CSS would use CA funds to finance 100 percent of certain projects,
and those CA-financed projects would be used to secure other privately-financed projects. In this
way, the CA would avoid commingling CA funds and non-CA funds, but would also maintain
the ability to leverage CA funds.

      Upon OIG’s suggestion, and in consultation with the EPA Program Office, CSS
implemented the OIG’s model for its third SmartWay Finance (SW3) award, for which CSS had



12-R-0749                                                                                          38
not yet disbursed funds at the time. However, such an approach was not feasible for the CA
portfolio, because all CA funds had already been disbursed via blended loans and were revolving
with other funds. If CSS had been aware of such an approach before it disbursed the CA funds,
or been directed to implement such an approach by EPA before beginning the project, CSS
would have done so. While CSS could theoretically refinance all loans in the CA portfolio and,
in so doing, separate CA funds from non-CA funds, this would cost CSS at least $500,000 in pre-
payment penalties to financial institutions, staff costs, and other document fees. Given CSS’ non-
profit status and relatively small levels of operating income, this option is prohibitively
expensive, and would deter CSS from its objectives of cleaning the air, reducing fuel
consumption, and saving jobs.

       Although CSS understands the merits of the OIG model for the revolving loan fund that
would permit segregation of CA funds, CSS believes that its commingled-funds approach to the
revolving loan fund complies with the CA and other applicable authority. Thus, while CSS has
implemented the OIG model for its SW3 award, CSS does not consider this to be an
acknowledgement that its commingled-funds approach under the CA is inadequate or
inappropriate.

  OIG Response 4. We did not suggest an alternate financial structure for the revolving loan
  fund. Rather, we commented to CSS management during the audit that implementation of
  the revolving loan fund phased financial structure prescribed in the workplan for the CA
  would have simplified the financial management of the revolving loan program. The
  financial model described above in CSS’ comments is similar to the financial structure for
  the revolving loan fund specified in the workplan. Under Phase 1, the workplan specified
  that CSS would use the $9 million of EPA funding along with California Proposition 1B
  funding to finance leases for trucks. For Phase 2, the workplan specified that CSS would
  use the assets acquired during Phase 1 to leverage additional financial resources such as
  bank loans. CSS’ decision not to implement the phased financial structure specified by the
  workplan resulted in more complex accounting system requirements for the revolving loan
  program. As discussed in our report, CSS management said that the organization’s
  accounting system was not sophisticated enough to track all sources and uses of funding as
  the complexity of the revolving fund increased.

  We agree that CSS’ use of multiple funding sources to finance leases for the revolving loan
  program is acceptable under the CA. However, we do not agree that CSS’ financial
  management system for the revolving loan program meets the requirements of 40 CFR Part
  30.21 and the CA as discussed in OIG Response 3.

               ii. Lack of Documentation

        Similarly, CSS disagrees with OIG’s assertion that CSS documentation of CA project
costs is inadequate because no notations or coding in the accounting system or on CSS’ project
documentation indicated that project costs were incurred under the CA. CSS intentionally
purchases trucks and equipment before it knows whether the trucks and equipment will
ultimately be financed with CA funds, because such an approach is most cost-effective. Rather



12-R-0749                                                                                        39
than document the assignment of project costs to the CA on the project documentation, or in the
accounting system, CSS uses spreadsheets to track project costs incurred under the CA, because
this method most efficiently allows CSS to take advantage of multiple funding sources and
reallocate CA funds to other projects when possible.

        CSS does not immediately decide whether a project will be a permanent part of the CA
portfolio because this allows the most cost-effective use of CA funds. CSS prefers to use private
sector and other non-CA funds to finance truck and equipment projects whenever possible, so as
to keep CA funds available for new projects. However, certain funding sources only become
available for CSS projects after leases or loans are formalized with the customer. In these cases,
CSS uses CA funds as initial working capital for the project, and later substitutes in non-CA
funds, making the CA funds available again. This is the case with many grants, which can take
several months to receive and with most of CSS’ private sector partners, which will usually
finance a truck or equipment project only after the lease or loan has been completely formalized
and is in repayment. Thus, in order to exploit these funding opportunities and make the most
effective use of taxpayer funds, CSS does not initially determine whether a truck and equipment
project will be a permanent part of its CA portfolio.

         An example helps to illustrate how this principle works and demonstrates why it is a
necessary part of CSS’ business model. In October 2009, a California Licensed Motor Carrier
(fleet) began working with CSS to find a solution for its independent owner operators (IOOs)
that wanted to upgrade their trucks. CSS researched available trucks and purchased a batch of
trucks from USA Trucks, a truck wholesaler, with the fleet’s approval. The trucks CSS
purchased on behalf of the fleet were located on the East Coast and had to be shipped to the
fleet’s yard in California.

        In the first phase of the process to put these trucks into service for the fleet and its IOOs,
CSS put a deposit down on the trucks, obtained a signed memorandum of understanding from the
fleet that it would purchase the trucks from CSS, set up customer leases, and then purchased the
trucks and transported them to California. The memorandum of understanding included a
preliminary lease calculation, which the fleet used to explain the project to the drivers and obtain
commitments from the IOOs. CSS subsequently had each of the 30 IOOs planning to purchase
one of the trucks sign a lease document, which is documented by the final lease calculation,
before paying the vendor and transporting the trucks. Although CSS ultimately intended to
obtain California Air Resources Board (CARB) funding to finance the truck retrofits, and
provide private sector lenders for each of the leases associated with these trucks, CSS purchased
the trucks on 10/08/09 for $624,000 using only CA funds. CSS was forced to do this because
CARB funds would not become available until the trucks were licensed, registered, and
physically located in California; CSS’ partner banks would not finance the trucks without CSS
having finalized the lease documents and titles, which also required the trucks to be in
California; and USA Trucks, the vendor, would not transport the trucks to California without the
vehicles first being paid for in full. Thus, CSS was forced to pay the entire cost of the trucks up
front to get the process moving.

       The second phase of the process involved getting the trucks, after arriving in California,
inspected, repaired, and delivered to the CSS customers. CSS first titled each truck in California,



12-R-0749                                                                                          40
which allowed CSS to submit applications for CARB diesel particulate filter retrofit grants for
the trucks. For each truck, this process of titling, inspection, and repair took anywhere between
three and five months to complete.

        The third and final phase of the process involved arranging the ultimate financing for
each of the truck leases or loans. As an initial step, CSS replaced the CA funds used to retrofit
the trucks with CARB grant money when it became available. For these trucks, the CARB grant
money arrived between 2-3 months after the trucks were delivered to California. CSS then
submitted a project summary to its partnering financial institutions for bids. After receiving
responses from its partnering financial institutions, CSS evaluated the funding proposals,
including some that provided 100% funding, and others that proposed blended funding, and
selected the best option for its customers. This process of arranging financing was completed in
May of 2010 – nearly nine months after CSS’ management and processing of these trucks began
and CSS had IOOs sign leases.

        This example demonstrates why it is important for CSS to avoid locking in the final
funding source for a project at the beginning: because other funds may only become available
well after the truck has been purchased and the loan formalized. As a result of implementing this
process for all of its truck lease and equipment loans, CSS has leveraged the initial $9 million in
CA funds it received to generate another $5 million in truck financing from private and state and
local grant sources. That is, after initially spending $9 million of CA funds on trucks, only $3.7
million—42 percent of the original amount—are today associated with these trucks. CSS has
successfully found nearly $5.3 million non CA-funds to replace the CA funds and free them up
for other projects. As a result, CSS has redeployed the $5.3 million in freed-up CA funds in
additional projects, putting more clean trucks on the road.

        As discussed below, CSS uses spreadsheets, rather than notations on physical project
documentation, or coding in its accounting system, to track CA funds through this substitution-
of-funds process. CSS’ spreadsheet system allows CSS to substitute private or grant funding for
CA funds, and thus free up CSS monies when possible. Making physical notations on
documentation is not a reliable way to track this information, and CSS’ accounting system was
not set up at the beginning of the project period to handle multiple funding sources for a single
project. CSS thus used a spreadsheet system to track this information.

 OIG Response 5. CSS’ comments clearly disclose that it has not established a formal
 revolving fund or accounts within its accounting system to track the source and application
 of funds. Also, the example that CSS provides does not provide a rationale for not
 establishing a revolving loan program that tracks the assets, liabilities, revenues, and
 expenses in accordance with federal requirements discussed in OIG Response 3. The
 purpose of the funding provided by EPA under the CA was to create a revolving loan
 program. The program does not require exclusion of other funding sources that contribute to
 the program, but CSS needs to implement internal controls that ensure funding provided by
 EPA is being used for eligible purposes. Programmatic Condition 2.7 requires the recipient
 to maintain accountability for funds and assets accrued as a result of the CA award.

                                           -continued-


12-R-0749                                                                                           41
OIG Response 5 (continued).
However, the funding from the multiple sources used to finance the revolving fund has been
recorded to bank and general ledger accounts that includes cash receipts from programs not
associated with the revolving fund. Disbursements from the cash accounts that include CA
deposits also include disbursements for expenses other than equipment purchases (e.g,
payroll).

Without the use of dedicated accounts and project coding to segregate funding sources and
disbursements for the revolving loan program, we are unable to verify that the source and
application of funds have met the terms and conditions of the CA. We also are unable to
verify the balance of CA funding available for additional truck or equipment leases under
the revolving loan program. As discussed in the draft report, we were unable to reconcile
CSS’ spreadsheets to the accounting system for the revolving loan program partly funded by
the CA.


                       1. Subsequent CSS Actions

       CSS strongly believes that it has maintained appropriate documentation under the CA,
and that its use of spreadsheets to track this information was appropriate at the start of the project
period and continues to be appropriate. However, CSS does acknowledge that it has not always
been easy for outside parties to review transactions involving CA funds. In recognition of this
challenge, and in pursuit of greater transparency for its revolving loan fund, CSS has taken a
number of steps to increase its capability to monitor its projects.

        In the fourth quarter of 2010, CSS established a Compliance team which performs an
independent review of each project file and coordinates advances and vendor payments with
other CSS departments. Further, CSS established a project origination system and a job cost
system that tracks all costs associated with individual projects, and more easily allows CSS to
assign and reassign financing from multiple sources to a project. In July 2010, the job cost
system was implemented for regional EPA grants. Finally, CSS is in the process of integrating
the project origination system with the job cost system and its accounting system.

 OIG Response 6. We disagree that CSS has maintained documentation for revolving loan
 program project costs that meets the requirements specified by 2 CFR Part 230 and 40 CFR
 Part 30 as discussed in the draft report. Our review of invoices, payment documents, and
 accounting system entries provided by CSS to support a judgment sample of $4,336,066
 expenditures identified that the documentation and entries did not include notations or
 coding showing that the costs were incurred under the CA. With regard to CSS’ comment
 that the use of spreadsheets was appropriate to track information under the CA, we were not
 able to reconcile project information in the spreadsheets to the accounting system because
 most revolving fund program transactions were not segregated from other transactions in the
 system.

 We acknowledge CSS’ comments identifying steps taken to increase its capability to
 monitor projects. However, the comments do not explain how the steps have resolved the
 specific accounting and documentation issues for the revolving loan program discussed in
 the draft report.

12-R-0749                                                                                          42
        C. Revolving Loan Fund Requirement Not Met

        The OIG Draft Report states that CSS failed to (a) establish a formal revolving fund that
meets the requirements of Title 40 CFR 30.21; (b) segregate all revenues, costs, cash, and
accounts receivables associated with the CA within its accounting system; (c) implement a
project cost system for expenditures made under the CA; and (d) reconcile its accounts because
revolving loan fund transactions were not segregated from other transactions in the system.

        Each of these statements relates in some way to CSS’ initial decision, made before the
project period started, to use spreadsheets to track CA funds in the revolving loan fund. CSS
decided that spreadsheets would be appropriate to use for tracking and reporting obligations
because CSS determined, through discussion with its EPA Project Officer, that CSS only needed
to report on projects undertaken with the initial $9 million in CA funds, and CSS did not need to
report on projects undertaken with revolved loan funds. Because of this understanding, CSS
considered a spreadsheet system to be most appropriate for CA compliance and reporting, and
declined to implement a more complex tracking system.

        CSS believes that its tracking of CA funds using spreadsheets constitutes compliance
with the CA and EPA and OMB regulations. CSS declined to create separate lease or loan
transactions for each funding source used in a project, as the Draft Report claims is required,
because such a process would impose significant operational difficulties on CSS and its
customers and is not feasible.8 Such an approach would require, for each project, multiple lease
or loan documents, each of which would require separate monthly payments from the borrower,
and would dramatically increase loan servicing complexity and costs, internal set up, monthly
processing time, and collection efforts. In addition, such an arrangement would place an
untenable burden on CSS’ customers, many of whom are small, independent truckers, and do not
speak English as a first language.

        With the deployment of the CA funds, CSS created a secondary spreadsheet database
specifically for the purpose of tracking CA funds by project. This secondary database, which
CSS calls its Accounts Receivable Distribution Table, allows CSS to track multiple sources of
funding for a single project and to automatically designate incoming loan repayments associated
with a project proportionately back to its funding sources.9 CSS regularly reviews and reconciles
this database with its lease and loan portfolios. Because of limitations in CSS’ accounting system
that existed at the beginning of the project period, these reviews or reconciliations are currently
prepared outside of the accounting system and the net results of the activity are recorded via
journal entry into the accounting system. This process of spreadsheet tracking, with periodic
reviews and reconciliation with the accounting system, provides the same tracking capability as
OIG’s preferred approach.


        8
           CSS understands OIG to interpret EPA and OMB regulations and the CA to require that a project with
multiple funding sources (e.g., CA 5%; State Grant 50%; Financial Institution 45%) be recorded and tracked as three
separate lease or loan transactions.
         9
           In the deployment of the Accounts Receivable Distribution Table in March 2010, CSS incorporated
categories to separately track each of its EPA SmartWay Finance Grants and other sources of funding. As stated by
CSS Bylaws, any excess net assets are to be reinvested into the CSS revolving loan fund. The Accounts Receivable
Distribution Table therefore incorporated a separate designation for the CSS revolving loan fund.


12-R-0749                                                                                                       43
        CSS is in the process of incorporating this secondary database into its new customer
relationship management (CRM) processing system, which interfaces with the accounting
system, and will have the process completed by August 2012. This integration will eliminate the
need to maintain the secondary database for CA reporting, will significantly streamline CSS
tracking and reporting processes, and will increase the quality and consistency of CSS reporting
data.

  OIG Response 7. We were not able to verify with the EPA project officer CSS’
  comments explaining that it considered a spreadsheet system to be most appropriate for
  CA compliance and reporting based on a discussion with the EPA project officer. The
  original project officer for the CA no longer is employed by EPA, and the current project
  officer was assigned to the CA in September 2010. The current project officer told us that
  he was not aware of any EPA guidance that would direct or suggest CSS to only report on
  the initial deployment of the $9 million in CA funds. This project officer also informed
  CSS in February 2011 to continue reporting projects in quarterly reports until the grant is
  closed out and the final project report is submitted to EPA.

  We do not agree that CSS’ use of spreadsheets constitutes compliance with 40 CFR
  Part 30.21 and the CA. Title 40 CFR Part 30.21(b)(2) requires recipients’ financial
  management systems to provide records that adequately identify the source and
  application of funds for federally sponsored activities. Title 40 CFR Part 30.21(b)(3)
  further specifies that recipients’ financial management systems provide accountability for
  funds, property and other assets. Programmatic Condition 2.7 of the CA requires the
  recipient to maintain effective control over and be accountable for all funds, property, and
  other assets accrued as a result of the CA. As discussed in the draft report, we were not
  able to reconcile the spreadsheets to the accounting system because most revolving loan
  fund transactions were not segregated from other transactions in the system.

  The draft report does not state that CSS is required under federal regulations and the CA to
  create separate lease or loan transactions for each funding source. Rather, the report
  explains that we are unable to provide an opinion on the financial resources, related
  liabilities, revenue, expenses, and residual balances of the fund because CSS has not
  established and used a comprehensive set of accounts for the revolving fund. Accounting
  for all funding associated with the revolving loan program is consistent with the revolving
  loan fund model specified in the workplan for the CA. The workplan specifies that
  principal in the loan fund (from EPA and other contributors) will remain in the fund
  permanently, continuing to revolve and be used for the same purpose of clean technology
  leases. Therefore, all financial resources, related liabilities, revenue, expenses, and
  residual balances are required to be accounted for as part of the revolving loan program
  partly funded by the CA. CSS’ comments do not explain why it is unable to establish a
  comprehensive set of general ledger accounts that records all revolving loan program
  financial transactions.

                                          -continued-




12-R-0749                                                                                        44
   OIG Response 7 (continued).
   During the course of the audit, CSS provided the OIG with a spreadsheet that includes data
   on lease receivables by customer as of December 31, 2010, and appears to be the
   “Accounts Receivable Distribution Table” described by CSS in its comments on the draft
   report. This spreadsheet identifies the total present value of lease receivables for all CSS
   customers. The spreadsheet also appears to identify projects fully or partially funded under
   the CA as well as projects funded under other funding sources and programs. The total
   present value for the projects includes all funding sources (i.e., commingled funds) used to
   finance the lease. Although CSS’ comments disclose that the spreadsheet is periodically
   reconciled to the accounting system, we are unable to reconcile the lease receivable
   balances for projects identified as fully or partially funded under the CA to the accounting
   system because revolving loan fund receivables were not segregated from other receivables
   in the general ledger.

   We acknowledge CSS’ comments on the new CRM system. However, CSS has not
   explained how the CRM will achieve segregation of lease receivables for the revolving
   loan program in the accounting system.


               i. A Formal Revolving Loan Fund Is Not Required Under the CA

        CSS disagrees with the OIG Draft Report’s statement that CSS must establish a “formal”
revolving loan fund to meet the requirements of Title 40 CFR 30.21. That regulation does not
prescribe any requirements for a “formal” revolving loan fund or even mention revolving loan
funds in any respect. As a result, CSS does not believe that the CA, or other applicable ARRA,
EPA, or OMB requirements, mandates that CSS implement a formal revolving loan fund.

         At the beginning of the CA project period, CSS decided against a formal revolving loan
framework for several reasons. First, a formal revolving loan fund would require CSS to
formally lock in financing sources before financing a project. As described above in section
III.B.ii, the ability to delay this decision provides many advantages, and allows for the most cost-
effective use of taxpayer money.

        Second, at the beginning of the project period, CSS did not have sufficient accounting or
administrative infrastructure to implement a formal revolving loan fund. As noted above, CSS
has grown rapidly in recent years and has, over the past three years, taken significant and
appropriate steps to upgrade its internal control and accounting systems. Over this time period,
CSS has undertaken and completed numerous compliance upgrades, including the upgrade of its
accounting system; the creation of a job cost system dedicated to grants compliance (in July
2010, before the OIG audit began); and the creation and development of a customer management
system that is integrated with the accounting, billing, and collection systems, incorporates grants
and award requirements for both regional and national EPA awards, handles lease and loan
transactions for both trucks and equipment, and allows for multiple funding sources for a single
lease or loan transaction. A formal revolving loan fund disbursing blended public-private loans
would require most, if not all of, these administrative functions to be available at the outset of the
project. Given the resources available to CSS at the time it was awarded the CA, and given the
fact that, at that time of the CA’s award, most of the above accounting and administrative


12-R-0749                                                                                          45
infrastructure was not in place, it was simply not feasible for CSS to implement a formal
revolving loan fund at that point. However, the CSS system in place today provides the same
result.


              ii. Segregated CA Accounts Are Not Required

        CSS acknowledges that it did not establish a segregated set of accounts within its
accounting system for the CA, but disagrees with OIG that such a setup is required. As
mentioned above, such an arrangement would significantly increase the administrative burdens
associated with the revolving loan fund CSS and its customers. Moreover, in 2009 and 2010,
EPA was the single largest contributor to the CSS revolving loan fund, and substantially all of
CSS’ operations involved the revolving loan fund. Because the CSS revolving loan fund
deliberately blends resources from multiple sources, and because CSS chose to track CA funds
for reporting purposes in a secondary database, CSS did not consider it necessary to segregate
the cost of each financing project by funding source within its accounting system.


              iii. A Project Job Cost System Is Not Required

        While a Project Job Cost system aids in tracking revenue and costs by grant or contract,
such a system is not required by either Title 40 CFR Part 30 or Title 2 CFR Part 230. Although
CSS implemented a Project Job Cost system in July 2010, this occurred after the initial
disbursement of $9 million in CA funds, which was completed in early 2010. CSS did not
recreate past CA transactions associated with the revolving loan fund in its Project Job Cost
system because it has not been directed to do so by EPA, and this would be a hugely burdensome
undertaking. To fully switch to the Project Job Cost system for the entire CA project period, CSS
would have to reclassify each transaction associated with the revolving loan fund that has taken
place since the beginning of the CA project period, which started on June 1, 2009. The revolved
loan fund now involves 8,500 transactions per month, so reclassifying 30 months of past
transactions would be a truly massive undertaking. However, CSS intends to set up all future
grants and contracts within its Project Job Cost system.

   OIG Response 8. We disagree with CSS’ position that the CA or federal regulations do not
   require a formal revolving fund. The CA award provided Recovery Act funding to CSS for
   the creation of a national revolving loan program and specified that the recipient comply
   with 40 CFR Part 30. The workplan for the CA specified that CSS will implement a
   revolving loan fund using multiple funding sources. The workplan further specified that
   principal in the loan fund (from EPA and other contributors) will remain in the fund
   permanently, continuing to revolve, and be used for the same purpose of clean technology
   leases. The workplan also stated that CSS will not use any EPA funding to pay program
   operating costs but would use interest earned from the program.

                                           -continued-




12-R-0749                                                                                         46
   OIG Response 8 (continued).
   Title 40 CFR Part 30 and the CA include provisions to ensure complete accounting for all
   the funds, property, and assets accrued as a result of the CA. Title 40 CFR Part 30.21(b)(2)
   clearly specifies that financial management systems should provide records that contain
   information pertaining to “assets, outlays, income and interest.” Title 40 CFR Part
   30.21(b)(3) requires that the financial management system provide “effective control over
   and accountability for all funds, property and other assets.” Title 40 CFR Part 30.21(b)(3)
   also states that “recipients shall adequately safeguard all such assets and assure they are used
   solely for authorized purposes.” Programmatic Condition 2.5.A of the CA is consistent with
   40 CFR Part 30 and requires that the recipient maintain records to track Recovery Act funds
   separately from other grant programs. Programmatic Condition 2.7 of the CA requires the
   recipient to be accountable for funds, property, and other assets accrued as a result of the
   CA. Further, Programmatic Condition 20 requires work under the agreement to be
   completed in accordance with the approved workplan.

   We disagree that CSS’ system in place today provides the same result as a formal revolving
   fund established and managed through an accounting system. The complexity of the
   revolving loan program transactions described in CSS’ comments to the draft report
   highlights the need to establish a formal revolving fund that meets the financial management
   requirements of federal regulations and the CA. CSS’ revolving loan program includes
   funding from multiple sources, lease receivables, loan payables, program income, and
   expenses. Therefore, a dedicated set of general ledger accounts is necessary to define the
   scope of the revolving loan fund and account for all funds and assets accrued as a result of
   the CA award. Without records that reconcile to the accounting system, we are unable to
   determine whether funds were used under the revolving loan program in accordance with the
   terms and conditions of the CA. We found no evidence during the examination that CSS’
   accounting system lacked the capacity to establish a formal revolving loan fund through a
   dedicated set of general ledger accounts at the time of the CA award.

   We disagree that a project cost system is not required by either 40 CFR Part 30 or 2 CFR
   Part 230. The CA award provided CSS with $9 million in Recovery Act funds specifically to
   create a revolving loan program for heavy-duty trucks to save fuel and reduce emissions.
   Title 40 CFR Part 30.21(b)(2) specifies that a recipient’s financial management systems shall
   provide records that adequately identify the source and application of funds for federally
   sponsored activities. In addition, 2 CFR Part 230, Appendix A, A.2(a) and (g), require costs
   to be allocable and adequately documented to be considered allowable under an award.
   A project cost system accounts for costs by a specific project or program rather than by
   department or the overall organization. Therefore, a project cost system is required by these
   regulations to show that the expenditures for the revolving loan program are specifically
   allocable to and allowable under the CA.

                                             -continued-




12-R-0749                                                                                        47
 OIG Response 8 (continued).
 With regard to CSS’ comments that a project job cost system was implemented in 2010,
 we found that CSS’ general ledger covering 2010 financial transactions included only one
 revenue account that contained $78,000 of the $9 million award and six salary and salary-
 related accounts that totaled $277,431 in expenses for the revolving loan fund program. We
 found no general ledger accounts for trucks and other equipment expenditures under the
 revolving loan program partly funded by the $9 million CA award. Therefore, we agree that
 fully accounting for the $9 million award would be a difficult undertaking for CSS.
 However, CSS is required under 40 CFR Part 30 to fully account for the Recovery Act
 funding. CSS’ comment that it intends to set up all future grants and contracts within its
 project cost system will not provide acceptable accountability for the $9 million award of
 Recovery Act funds.



       D. Project Costs Not Fully Supported

       The OIG Draft Report states that CSS was unable to provide complete support for
revolving loan program projects and associated lessee payments because the projects and
payments were either understated or overstated. The OIG Draft Report also states that CSS was
unable to accurately identify income or losses from leases or measure whether leases and the
revolving fund program were economically sound because CSS failed to meet applicable
financial management requirements.

        Again, CSS disagrees with OIG’s assertions. CSS told OIG during the audit, and OIG’s
audit bore out, that the discrepancy OIG identified between project receipts and costs for the
audited costs is due to CSS’ deliberate approach of estimating, rather than precisely tracking, the
costs associated with the repair of trucks. Trying to itemize this level of detail would be
counterproductive from a cost perspective, and, for three reasons, CSS does not believe such an
approach is feasible.

        First, practical considerations require an estimated approach. CSS’ business model
requires borrowers to sign fixed price contracts before CSS purchases the trucks to ensure the
borrower is committed to the project. However, the repair costs associated with a particular truck
can vary and are not known until after CSS takes delivery of the truck, which occurs only after
the borrower has signed a contract with CSS.

        Second, efficiency considerations make CSS’ estimated approach highly preferential.
CSS makes necessary repairs to the trucks that it finances using both new and used parts. If CSS
is required to align precisely its costs and receipts for each repair project it undertakes, this
would require a comprehensive inventory system that tracks individual repair parts. Merely
tracking general prices of commonly used parts would not be sufficient, because the prices at
which CSS purchases various parts can vary from day to day and from order to order. For
example, CSS normally purchases tires in bulk in order to receive the lowest prices possible.
However, the price of a single tire may vary based on the model of tire; its condition; and the
batch in which CSS buys the tire. While CSS could theoretically create an inventory system to



12-R-0749                                                                                        48
calculate and record the individual prices of individual parts, it would be hugely burdensome.
Moreover, such a system would still not adequately track certain repair costs including oil
changes, lube jobs, and repainting (when necessary), which do not always involve measurable or
discrete amounts of inventory.

        Third, and most importantly, the benefits associated with implementing such a tracking
system are very small, and are significantly outweighed by the corresponding administrative
costs. CSS’ experience indicates that a $500 repair charge accurately reflects the average cost
associated with the repair of the used trucks it purchases. This charge comprises, on average, less
than three percent of the cost of each truck. The OIG reviewed financing projects that totaled
$229,350 and reported a net discrepancy of $909, which represents 0.4 percent of the total cost
of those projects. CSS does not believe such a small differential represents a material
discrepancy. Thus, CSS believes the benefit from implementing such a system would be
minimal.

        However, the costs associated with implementing such an inventory tracking system in
CSS’ truck department would be highly burdensome. Such a system would require CSS to (a)
require its vendors to provide a unit-by-unit breakdown of the cost associated with the parts it
purchases; (b) physically label each part that it purchases with an identifier; (c) input that
identifier into the CSS project database and associate it with the purchase receipt; and (d) update
the project database each time a part is used on a particular truck. Given that CSS may install
several parts on a truck while repairing it, requiring such particularized information would
greatly multiply the administrative burden placed on CSS accounting staff and its truck
department, with little appreciable benefit.

        Further, even if CSS were able to implement such an inventory system, the cost
associated with truck repair would go up significantly. Under such a system, CSS would likely
cease to buy parts in bulk in advance, and instead only buy repair parts upon the knowledge that
such parts are needed for particular repairs. This means CSS would buy them in smaller
quantities and at higher prices. Thus, implementing an inventory part tracking system would
likely lead to more expensive parts, and CA funds would not be used as cost effectively as they
are currently—a counter-productive result.

        CSS strongly believes that its repair cost system complies with the requirements set out in
EPA regulations, and the CA, and that CSS adequately identifies the source and application of
the CA funds used for repairs of trucks. Given that a comprehensive inventory system is unlikely
to be able to adequately track all pieces of inventory, would place a significant burden on CSS’
truck department, and would not adequately document all inventory that CSS uses to repair its
trucks, CSS believes that its approach is the most prudent use of CA funds and constitutes
compliance with the CA and EPA and OMB regulations.




12-R-0749                                                                                        49
   OIG Response 9. Our position remains unchanged. CSS’ comments disclose that project
   costs include estimated repair costs rather than actual costs. CSS’ comments further disclose
   that parts purchased in bulk are not included in an inventory tracking system and allocated to
   projects based on actual costs. As discussed in the draft report, 2 CFR Part 230, Appendix A,
   A.2 (a) and (g), require costs to be allocable and adequately documented to be considered
   allowable under an award. In addition, 40 CFR Part 30.21(b)(2) requires recipients’ financial
   management systems to include records that identify adequately the source and application of
   funds for federally sponsored activities. This regulation further states that these records
   should include information pertaining to assets, outlays, income, and interest. CSS was
   unable to support that all reported projects costs are allowable under 2 CFR Part 230 and
   40 CFR Part 30.

   In the absence of a fully implemented project cost system, we were unable to determine
   whether the cost records that CSS provided were complete or that the costs were allocable to
   the CA. We were also unable to determine whether CSS’ cost estimates were accurate or
   project costs were materially over- or under-stated. CSS was unable to accurately identify
   income or losses from leases or measure whether leases and the revolving fund program were
   economically sound because it did not meet the financial management requirements of 40
   CFR Part 30.


       E. Progress Reporting Not Accurate

        The OIG Draft Report states that CSS’ progress report for the quarter ending December
2010 did not accurately identify expenditures by funding source, the number of projects, and the
total costs of projects in the revolving fund program. OIG asserts that this led to an
overstatement of the number of projects financed by CA funds and an understatement of the total
project costs and funding from other sources.

        CSS agrees with OIG that the CSS progress report for the quarter ending in December
2010 did contain certain errors that led to inaccurately reported results. Certain figures contained
errors due to oversight or improper calculation by CSS. For instance, the amended report
submitted by CSS removed 39 projects, because CSS discovered during an internal audit that
those projects took place outside of the CA project period. CSS also amended the report to
include previously excluded total down payments and state and local grants, and the current
outstanding balance of each lease or loan funded by the CA. This had the effect of increasing
total project costs, down payments, and state funded expenditures. The amended report also
reflects reimbursements from financial institutions for vehicles initially funded by the CA, which
decreased the cumulative CA expenditures and increased financial institution expenditures by
approximately $5.4 million.

        However, CSS believes that most of the reporting discrepancies that OIG identified in the
report are not due to error, but instead due a misunderstanding over the scope of the progress
reports in question. CSS, in submitting the December 2010 and other progress reports, followed
instructions it received from its EPA Project Officer to report only upon projects funded by the



12-R-0749                                                                                        50
initial deployment of the $9 million in CA funds, and to exclude any projects funded with
revolved funds. Thus, neither the original nor the amended progress report included
approximately $3.8 million of emission control devices funded solely through CA revolved
funds.

         CSS believes that, even if EPA determines that its Project Officer’s guidance was
erroneous, discrepancies arising due to CSS’ reliance on that guidance should not be considered
erroneous. CSS’ EPA Project Officer serves as its primary contact for the EPA Program Office.
Given the innovative nature of the CSS revolving loan fund, CSS relied upon its Project Officer,
as its principal point of contact with EPA, to provide accurate guidance on the nature of its CA
obligations. Given that CSS complied with, and relied upon in good faith, its Project Officer’s
instructions, if EPA does determine, two years after the fact, that the Project Officer’s
instructions were given in error, CSS should not be held responsible for any errors that directly
resulted from CSS’ compliance with the erroneous instructions.

  OIG Response 10. Our position remains unchanged. CSS agrees that the progress report for
  the quarter ending December 2010 is inaccurate and that certain figures in the report
  contained errors due to oversight or improper calculation. CSS’ comments also acknowledge
  that the amended quarterly report ending December 2010 is inaccurate and excludes
  approximately $3.8 million of emission equipment apparently funded under the CA. As
  discussed in the draft report, Programmatic Condition 5 of the CA requires CSS to provide
  EPA with quarterly reports that address progress toward achieving the workplan goals. The
  condition specifies that the reports include summary information on planned activities,
  implementation of diesel emission reduction strategies, expenditures, and issuance of loans,
  leases, or bonds. Without accurate quarterly reporting by CSS, EPA is unable to measure the
  recipient’s progress toward achieving the goals of the CA.

  With regard to CSS’ comment that it believes most of the reporting discrepancies identified
  in the draft report were caused from following guidance provided by the EPA project
  officer, we were unable to confirm the comment with EPA. The current project officer was
  assigned to the CA during September 2010 and told us that he was not aware of any EPA
  guidance that would direct or suggest CSS to only report on the initial deployment of the
  $9 million in CA funds. This project officer also informed CSS in February 2011 to continue
  reporting projects in quarterly reports until the grant is closed out and the final project report
  is submitted to EPA.

  CSS’ comments indicate that there appears to be a misunderstanding with EPA on the
  quarterly reporting requirement specified by the CA. Therefore, we have added a
  recommendation that EPA provide clarifying guidance to CSS on financial and other project
  information required to be included in quarterly progress reports and request the recipient to
  submit corrected progress reports as appropriate for prior quarters of the project period in
  the final report.




12-R-0749                                                                                          51
               i. Subsequent CSS Actions

        As the OIG Draft Report indicated, CSS submitted a new progress report for the quarter
ending in December 2010 to correct certain errors due to oversight or improper calculation.
However, CSS has not updated its quarterly progress reports to incorporate the use of revolved
funds because it has not received instructions to do so, and such an undertaking would require a
review of all transactions associated with the CA funds that have revolved, which would entail
significant effort and expenditure of administrative resources. However, CSS stands ready to do
so if EPA deems such action necessary.

  OIG Response 11. As discussed in the report, 40 CFR Part 30.21(b)(2) requires the
  recipient’s financial management systems to include records that adequately identify the
  source and application of funds for federally sponsored activities. CSS’ acknowledgment
  that significant effort and expenditure of administrative resources would be required to
  report on all transactions associated with the CA funds indicates that the organization is
  unable to readily account for all sources and application of funds of the revolving loan fund
  partly funded by the CA. Therefore, CSS’ response further supports our position that the
  recipient’s financial management system does not meet federal requirements under the CA
  and has not accurately reported on work progress toward meeting workplan goals in
  quarterly progress reports. We have added a recommendation that EPA require the recipient
  to submit corrected progress reports based on CSS’ comments.



       F. OIG Recommendations

               i. Questioned Costs

       OIG has recommended that EPA disallow and recover $9 million in questioned costs
claimed under the CA, unless CSS provides documentation that meets appropriate federal
financial management requirements and shows that some or all of the questioned costs are
allocable and allowable to the CA. CSS believes that it has complied with all federal financial
management requirements and shown all costs to be allocable and allowable under the CA. CSS
has provided documentation of its expenditure of funds under the CA in Appendix A.

  OIG Response 12. Our position remains unchanged. As discussed in the draft report, CSS
  was unable to support that all funds drawn under the CA were used for expenditures that are
  allowable under and allocable to the CA during our examination. We were also unable to
  provide an opinion on the financial resources, related liabilities, revenue, expenses, and
  residual balances of the revolving fund. The expenditure documentation provided by CSS in
  appendix A of the response to the draft report does not provide any new information to
  support that the $9 million award has been used for expenditures that are allowable under
  and allocable to the CA or that any revolved funds are available for other revolving loan
  program projects.




12-R-0749                                                                                         52
               ii. Suspension and Debarment

       CSS strongly disagrees with OIG’s recommendation that EPA consider the suspension
and debarment of CSS. Neither is an appropriate course of action, and OIG has provided no
evidence to suggest that such an inquiry is warranted. As a non-profit organization, CSS has
been funded principally by EPA and DOE, which together have entrusted CSS with $41 million
in funds over the past five years. Suspension or debarment would be severely injurious to CSS’
mission, and would severely restrict its ability to lend. For this reason, CSS takes this
recommendation very seriously and strongly disagrees with it.

       Debarment is not an appropriate remedy because the OIG Draft Report has not claimed,
or produced any evidence suggesting, that the criteria for debarment under Title 2 CFR 180.800
might be met. No CSS personnel have been convicted of any crime regarding, and neither CSS
nor any of its personnel have been found civilly liable for any act regarding, the administration
of any of CSS’ programs or the CA. OIG has not suggested that CSS has willfully violated the
terms of the CA, or EPA or OMB regulations. Far from it, CSS has consistently endeavored in
good faith to comply with all requests and guidance made by the EPA Program Office
concerning the CA. CSS has no history of failure to perform under any of its agreements with
EPA or DOE, and has fully complied with all of its other agreements with EPA and DOE. The
provisions of § 180.800(c) are not applicable, and CSS’ responsibility has not been called into
question, as § 180.800(d) requires. Because the OIG Draft Report outlines no facts that in any
way implicate any of the regulatory criteria for debarment, EPA should not consider debarment
of CSS.

        Further, suspension is not warranted, because OIG has not claimed, or offered any
evidence to suggest, that the criteria for suspension outlined in Title 2 CFR 180.700 might be
met. No member of CSS personnel has been indicted for any criminal offense, and no evidence
exists that would lead to suspicion of any criminal offense or civil liability as required by Title 2
CFR 180.700 (a). OIG has offered no evidence to suspect any other cause for debarment,
including willful violations of the CA terms or EPA or OMB regulations; a history of failure of
CSS to perform under other agreements; any cause listed in Title 2 CFR 180.800(c); or doubt
about CSS’ present responsibility. Finally, no immediate action is necessary to protect the public
interest. Indeed, if EPA undertakes suspension or debarment of CSS, such action would have the
perverse effect of significantly harming the public interest, because such action would forgo the
emissions reductions, public health benefits, and fuel savings associated with the CSS program,
and would deny thousands of future CSS customers access to funding for their small businesses.
Thus, because the regulatory criteria for suspension are not met, and the public interest would be
harmed, rather than protected, by suspending CSS, EPA should not consider suspension of CSS.

        Other considerations further buttress the conclusion that EPA should not consider the
suspension or debarment of EPA. CSS’ auditor, Isler CPA, has prepared a letter, attached as
Appendix B to this report, which notes that it is not aware of any evidence that would support
consideration of suspension or debarment of CSS. Moreover, suspension or debarment are
actions of last resort, and are premature, because CSS stands ready to work with EPA and OIG to
resolve the audit to the satisfaction of all parties. Because of CSS’ good faith efforts to comply
with EPA directives, and because of the novel nature of CSS’ public-private revolving loan fund,



12-R-0749                                                                                          53
EPA should first consider whether specific guidance would remedy any deficiencies or
shortcomings it may find and give CSS a chance to comply with such guidance. Thus, because
OIG has not shown or suggested that the criteria set out in EPA’s regulations for suspension and
debarment might be met, and because CSS is willing to work diligently in implementing the
guidance of EPA as the revolving loan fund continues to evolve, CSS respectfully requests that
EPA not consider suspension and debarment.

  OIG Response 13. Our position remains unchanged. Title 2 CFR Part 180.800(b) specifies
  that an Agency may pursue a suspension and debarment action for violations of the terms of
  a public agreement or transaction so serious as to affect the integrity of an agency program.
  As discussed in the draft report, the $9 million awarded to CSS represents 30 percent of the
  Recovery Act awards under the SmartWay Clean Diesel Finance Program. Therefore, CSS’
  financial management deficiencies discussed in the draft report pose a serious threat to the
  integrity of the Recovery Act-funded portion of EPA’s Clean Diesel Finance Program.

  We also disagree with CSS’ position that the recipient has no performance or compliance
  deficiencies under any of its agreements with EPA. During October 2011, EPA’s Office of
  Grants and Debarment designated CSS as a “high-risk” recipient as a result of material
  noncompliance with the terms and conditions of several federal awards discussed in its
  single audit report for the year ended December 31, 2010. Because of the designation, the
  Office of Grants and Debarment changed CSS’ method of payment under EPA awards from
  “advance” to “reimbursement with documentation” for all active awards. A history of
  failure to perform or unsatisfactory performance under one or more public agreements is
  another of the criteria for suspension and debarment under 2 CFR Part 180. CSS financial
  management issues under the CA and material noncompliance issues under other federal
  awards identified in the single audit report establish a history of failure to perform under
  federal agreements.

  We acknowledge the letter from CSS’ Certified Public Accountant commenting that they
  did not find any material noncompliance with federal regulations or requirements of the
  award during the single audit. However, the single audit report covering the year ended
  December 31, 2010, does not discuss the specific requirements of the CA, present any
  financial details of the revolving loan program partly funded by the EPA award, or the
  financial position of the revolving loan fund.

  CSS’ comments to the draft report indicate that it does not fully understand the financial
  management requirements specified by 40 CFR Part 30, 2 CFR Part 230, and the CA. These
  regulations and the terms and conditions of the award include provisions that require CSS’
  financial management system to provide accountability for funds and other assets. Without
  segregated accounts for all funds and assets, we are unable to determine whether funds,
  including revolved funds, are being used in accordance with the terms and conditions of the
  CA. We also cannot determine whether CSS can meet operating expenses of the program
  with program income or if expenses are in fact eroding the capital provided by EPA and
  other sources.




12-R-0749                                                                                         54
              iii. Establishment of Internal Controls

        OIG also recommends that CSS establish controls that ensure the use of CA funding
complies with Title 40 CFR 30.21. Such controls should ensure (a) accurate, current, and
complete disclosure of the financial results of the revolving loan program funded under the CA;
(b) records that identify adequately the source and application of CA funds; and (c) effective
control over and accountability for all funds, property, and other assets of the EPA-funded
revolving loan program.

        The steps CSS has taken prior to, and in response to, the concerns laid out in the OIG
Draft Report should eliminate any doubt that CSS has sufficient controls in place to respond
these concerns. CSS has implemented a job cost system that meets OIG and EPA’s concerns,
interfaces with CSS’ accounting system, and adequately tracks projects with funding from
multiple sources. Further, based on OIG’s suggestion, CSS has implemented a new financial
structure that avoids the commingling of CA and non-CA funds in its SW3 award. Finally, CSS
has created a 3-member compliance department that did not exist at the beginning of the CA
project period and that is solely dedicated to ensuring CSS meets its reporting obligations under
the CA, other EPA and DOE awards, and all relevant federal statutes, regulations, and guidance.

        CSS believes that it has always complied with its obligations to report and track CA
funds, but emphasizes that its capacity to administer a complex financial structure, such as its
revolving loan fund, has grown immensely over the past three years. Should EPA require further
steps to ensure that CSS’ internal controls are sufficient, CSS stands ready to discuss how any
such controls can be implemented in a reasonable manner.


  OIG Response 14. Our position remains unchanged. With regard to CSS’ comment that it has
  implemented a job cost system, our examination of the recipient’s accounting system and
  supporting documentation disclosed that a job (or project) cost system has not been fully
  implemented for the revolving fund. As discussed in the draft report, CSS’ general ledger
  included only one revenue account that contained $78,000 of the $9 million award and six
  salary and salary-related accounts that totaled $277,431 in expenses for the revolving loan
  fund program. We found no general ledger accounts for truck and other equipment
  expenditures for the revolving loan program even though CSS has claimed that the majority of
  the $9 million award has been deployed for eligible projects. Further, our review of supporting
  records for a judgmental sample of $4,336,066 in expenditures CSS associated with the
  $9 million in cash draws under the CA showed no project coding. As a result, we were unable
  to verify that the expenditures were allocable to and allowable under the CA. We were also
  unable to provide an opinion on the assets, liabilities, revenues, and expenses for the revolving
  loan program because of the lack of a comprehensive set of accounts for the revolving loan
  program. CSS has not explained changes to its accounting system that ensure the use of
  funding provided under the CA complies with 40 CFR Part 30.21. CSS will need to explain
  these changes in response to the final report.

                                            -continued-




12-R-0749                                                                                       55
 OIG Response 14 (continued).
 We acknowledge CSS’ comment that a new financial structure has been implemented for its
 EPA SmartWay 3 award. However, CSS has not explained how the new financial structure for
 the SmartWay 3 award resolves the financial management issues and establishes internal
 controls that ensure the use of funding provided under the CA is in compliance with 40 CFR
 Part 30.21. CSS will need to explain the internal controls in its response to the final report.

 Although CSS commented that a three-member compliance department has been created to
 ensure compliance with federal regulations and award requirements, the recipient has not
 explained the internal controls implemented by this department to achieve compliance. CSS
 will need to explain these internal controls in its response to the final report.

 We do not agree that CSS has always complied with its obligations to report and track CA
 funds. As discussed in the draft report, we were unable to verify that CSS used the $9 million
 of EPA funding for expenditures that are allocable to and allowable under the CA. We are also
 unable to provide an opinion on the financial resources, related liabilities, revenue, expenses,
 and residual balances of the revolving fund because of material noncompliance and internal
 control weaknesses with financial management.




              iv. Special Conditions on Future EPA Awards

        OIG has also recommended that EPA awards to CSS include special conditions requiring
payment on a reimbursement basis, subject to approval by the EPA Project Officer, until EPA
agrees that CSS has met all applicable federal financial management requirements. CSS concurs
with this approach, with the following caveat.

         CSS respectfully urges EPA to apply such special conditions only to CSS’ EPA
SmartWay Finance awards and to exempt its regional awards from such treatment. These
regional awards are straightforward to administer and EPA has never had questions concerning
their implementation. However, they are very capital-intensive. Because CSS’ size is small when
compared to the amount of money that it distributes through these grants, CSS does not have the
ability to spend money extensively out of pocket and be reimbursed later. Because of CSS’ lack
of working capital, reimbursement status on these grants works a serious financial hardship on
CSS. That was recently illustrated in vivid detail when an unexpected month-long delay in
reimbursement by EPA nearly resulted in legal action against CSS by one of its vendors that had
not been paid as a result of the delay. Given that the transactions occurring under these grants are
straightforward and do not involve the revolving loan fund in any way, EPA should not place
any special conditions on CSS’ regional grants.




12-R-0749                                                                                        56
  OIG Response 15. Our position on the recommendation remains unchanged. During
  October 2011, EPA’s Office of Grants and Debarment designated CSS as a “high-risk”
  recipient as a result of material noncompliance with the terms and conditions of several
  federal (including EPA) awards discussed in its single audit report for the year ended
  December 31, 2010. Because of the designation, the Office of Grants and Debarment
  changed CSS’ method of payment under EPA awards from “Advance” to “Reimbursement
  with Documentation” for all active awards. Therefore, EPA has already established the
  recommended special conditions for all active awards.

  CSS’ response to the draft report further supports the necessity for full implementation of the
  recommendation. CSS’ response discloses that the recipient has not resolved the financial
  management issues identified in the report and does not fully understand the financial
  management requirements specified by federal regulations and the CA. EPA should establish
  the special conditions for future awards until CSS is able to fully demonstrate compliance
  with federal financial management requirements.



IV.    Comments on Chapter 4 – Procurement Requirements

       A. Truck Procurements Did Not Follow Competitive Process

         The OIG Draft Report states that CSS’ truck procurements did not meet the requirements
of Title 40 CFR Part 30, or CSS’ own procurement policy, because CSS procured trucks without
following a formal and documented competitive process. While CSS acknowledges that it did
not comply with applicable procurement requirements for its truck purchases, this is only
because CSS did not think those procurement requirements were applicable. CSS strongly
believes that its purchasing decisions have always been in the best interests of its consumers, and
that its ability to purchase trucks from wholesalers and fleets at below market value has
consistently resulted in excellent value for its customers. Thus, while CSS disagrees with OIG’s
application of the procurement requirements to its truck purchases, CSS is confident that it can
provide a sound and reasonable basis for each of the purchasing decisions questioned in the OIG
Draft Report.

         CSS has always understood its obligations to follow EPA, and its own, procurement
policy when appropriate. This is evidenced by a competitive bid process that CSS undertook in
2008 for new model year 2009 diesel trucks from truck manufacturers. However, after evaluating
the bids it received, CSS realized that new trucks were not feasible for most of its target
audience, and shifted its focus to used trucks, which are a more cost-effective and realistic option
for its customers.

         CSS does not believe that the procurement regulations should apply to its used truck
purchases because, in acquiring the trucks, CSS acts as an agent of its customers. Because there
is a lack of uniformity in the trucks available on the used heavy-duty diesel truck market, and
because CSS borrowers have different budgets and different needs for their trucks, CSS
borrowers need to be able to select their own used trucks. They are the only ones who can
realistically make a decision as to whether a particular used truck at a particular price is



12-R-0749                                                                                        57
acceptable. Because CSS customers make the final decision on whether to accept a truck, CSS
views itself as a middleman buying wholesale trucks on behalf of retail borrowers, and views the
procurement requirements as inapplicable in such a context.

       CSS confirmed that its interpretation of the procurement rules in this respect was
acceptable by consulting with its EPA Project Officer, who agreed with CSS that its approach to
purchasing vehicles did not constitute procurement: “While CSS lists eligible vehicles available
from multiple dealers, CSS isn’t directly selecting the vehicles because it is decided by the
driver…. [t]his approach sounded reasonable in trying to ensure open competition for selection
the most appropriate vehicles.”10

       However, CSS now understands OIG and the EPA Program Office to consider this CSS
wholesaling activity to be a procurement activity subject to the requirements of Title 40 CFR
30.45. CSS does not contest this interpretation.

        As a result of this change in procurement policy, CSS has implemented a price analysis
procedure that it believes complies with Title 40 CFR 30.45. Under this procedure, whenever
CSS purchases a truck or fleet of trucks, it documents that the purchase price is competitive with
the prices of other comparable used trucks, as indicated by North American Dealer Association
(NADA) valuations and industry publications, such as Truck Paper.

       CSS has also applied this procedure retroactively to confirm that each of its truck
purchases conducted under the CA resulted in prices lower than those that could have been
obtained using federal procurement procedures. The results of this comparison are available in
Appendix C.

  OIG Response 16. We acknowledge CSS’ statement that it now understands that truck
  procurements under the CA are subject to 40 CFR Part 30.45. However, we disagree the EPA
  project officer for the CA agreed that CSS’ approach to purchasing vehicles did not constitute
  procurement. CSS’ comment is based on an April 15, 2010, e-mail from the EPA project
  officer that discloses she understands that the selection of vehicles for purchase is made by the
  drivers rather than CSS. The e-mail does not instruct CSS to ignore the cost or price analysis,
  competition, and other documentation requirements specified by 40 CFR Part 30 as discussed
  in the draft report. As discussed in the report, CSS is also obligated to meet both the
  competition and other documentation requirements specified by 40 CFR Part 30.46 for
  purchases exceeding $100,000.

  CSS’ recently implemented price analysis procedure should meet the price analysis
  requirements of 40 CFR Part 30.45 if completed analyses show vehicle purchase prices are
  fair and reasonable and are fully documented. However, the results of CSS’ retroactive
  application of the procedure for truck purchases included in appendix C of its response does

                                                   -continued-


       10
            Email from Annie Kee to Sharon Banks, dated April 15, 2010, Appendix C, page C-2.


12-R-0749                                                                                        58
  OIG Response 16 (continued).
  not resolve the truck procurement issues discussed in the draft report. CSS provided in
  appendix C a document showing a retroactive comparison of purchase prices with National
  Automobile Dealers Association (NADA) retail values for a sample of 425 trucks placed in
  service during 2010. The comparison identifies that all 425 trucks in the sample were
  purchased at a price below the retail NADA value. Although CSS disclosed that the sample
  was representative of trucks placed in service in 2010, we were unable to determine whether
  the sample provided sufficient coverage of vehicle procurements allocable to the CA because
  the methodology was not included in appendix C. We were also unable to verify the accuracy
  of CSS’ price analysis for two primary reasons. First, the comparison data did not include the
  mileage for 178 of the trucks even though mileage is one of the factors used in determining the
  NADA value of a vehicle. Second, documentation supporting truck model, purchase price, and
  other data presented in the comparison document was not included in appendix C.


       B. Documented Cost or Price Analysis for Emission Control Equipment 

          Procurements 


        Like its policy on truck purchases, CSS did not, until recently, consider EPA and CSS’ own
procurement requirements to apply to emission control equipment purchases made on behalf of CSS
borrowers. This was the case for two reasons. First, as with its truck purchases, CSS does not
consider itself to be the procurer of emission control equipment, but rather an agent acting on behalf
of its borrowers. Second, CSS, in financing emission control equipment, never takes ownership or
possession of the emission control equipment. CSS merely acts as a broker for such equipment, and
allows the customer to select the exhaust retrofit that is installed by an authorized dealer.

       However, CSS now understands OIG and the EPA Program Office to consider CSS
financing of emission control equipment to constitute a procurement activity for purposes of
EPA procurement requirements and, as such, must be justified by a cost or price analysis. CSS
does not contest this interpretation.

       As it has done with its truck purchases, CSS has instituted a procedure for price analysis
of emission control equipment. In many cases, only one option is available to a customer because
CARB has only one verified technology for the specific engine type. In such cases, CSS
documents that this is the case. Further, CSS periodically issues requests for proposals, using
industry publications and/or valuation tools, to ensure that it accurately provides current prices to
customers making decisions about which emission control equipment to buy through CSS.

 OIG Response 17. We acknowledge CSS’ statement that it now understands that
 expenditures for emission control equipment under the CA are required by 40 CFR
 Part 30.45 to be supported by a cost or price analysis. We also acknowledge CSS’ statement
 that it has instituted a procedure for price analysis of emission control equipment. However,
 CSS’ comments do not disclose and include documentation supporting that the recipient has
 completed cost or price analyses for the $4,987,923 in reported costs incurred for truck
 emission control equipment discussed in the draft report. Therefore, CSS’ comments have
 not resolved theiv.cost or price analysis issue for these equipment procurements.


12-R-0749                                                                                         59
       C. Retrofit of 227 Pre-2007 Model Year Trucks

        The OIG Draft Report states that the costs associated with 227 pre-MY 2007 trucks are
not allowable because the trucks have not yet been retrofitted with emission control technologies.
Although these trucks were not retrofitted immediately after their purchase due to an unforeseen
but significant delay, they are being retrofitted now and will be completed by June 17, 2012.

        CSS did not retrofit the trucks immediately upon purchasing them because it anticipated
receiving CARB grant funds for the trucks shortly after they were purchased that would enable
CSS to install much more effective retrofits on the trucks. CSS purchased the trucks on behalf of
California buyers and decided not to install diesel oxidation catalyst (DOC) retrofits, which were
the most economical retrofits allowable under the CA, because the DOCs would only reduce
20% of particulate matter emissions, and would only be valid in California through the end of
2012. Instead, CSS planned to utilize CARB grants to install diesel particulate filters (DPFs),
which reduce 85% of particulate matter emissions, and are permitted in California after 2012.
CSS viewed the decision to forgo DOC retrofits and wait for DPFs instead as a reasonable one,
because it would achieve greater emissions reductions and eliminate the need for truckers to
upgrade their trucks again after 2013 to maintain compliance with the new, tougher California
emissions standards.

        CSS did not make the decision to pursue DPFs imprudently. In the year prior to
purchasing these trucks, CSS had successfully applied for, and secured, approximately 300
CARB grants for DPFs, and CSS had no reason to think that it would not be successful in
securing CARB grants for the 227 trucks. Further, CSS confirmed this course of action in writing
with its EPA Project Officer before deciding against the DOC retrofits.11

        In April 2011, after a one-year delay, CSS was informed by CARB that the 2006 model
year truck projects would not qualify for the CARB retrofit grant due to a rule change after the
purchase of the trucks. Since then, CSS has been researching other options to implement the
proposed strategy. After finding no other solutions, CSS is now installing the DOCs.

        CSS completed a bid process for the equipment and installation process of the DOCs and
ordered the retrofits in November 2011. Although CSS encountered a slight delay in installation
because the State of California had not approved the technology as CARB verified, CSS’ DOC
vendor, Johnson Matthey, received an “After Market Parts Exemption” to allow the installation
of these retrofits on February 8, 2012. CSS plans to follow the schedule it set out in a letter dated
October 31, 2011 to the EPA Program Office, and finish the retrofits of the 227 pre-2007 MY
trucks by June 17, 2012.




       11
            Email from Annie Kee to Sharon Banks, dated April 15, 2010, Appendix C, page C-2.


12-R-0749                                                                                          60
  OIG Response 18. Our position remains unchanged. Programmatic Condition 3.1.G of the
  CA specifies that CSS may use the funding under the award to purchase or lease pre-2007
  MY on-highway vehicles, used engines, and used pieces of equipment as long as verified
  emission control technologies have been installed. CSS’ comments disclosed that the
  emission control equipment retrofits for the pre-2007 MY trucks had not been completed as
  of February 21, 2012, the date of its response to the draft report.

  We acknowledge CSS’ comment that its decision to pursue diesel particulate filters rather
  than diesel oxidation catalyst retrofits was confirmed in writing with the EPA project officer.
  This confirmation was in the form of an April 15, 2010, e-mail to CSS from the EPA project
  officer disclosing that she was aware of the recipient’s plan to install the diesel particulate
  filters. The e-mail also disclosed that the project officer was aware that this process may take
  a “little bit of time.” As of February 2012, we note the emission control equipment retrofits
  for the pre-2007 MY trucks had not been completed as required by the CA even though
  almost two years had elapsed since the project officer sent the April 2010 email to CSS.

  CSS’ comments also disclose that the recipient’s current plan to install diesel oxidation
  catalyst retrofits rather than diesel particulate filters by June 2012 does not satisfactorily
  resolve the CA compliance issue with the pre-2007 MY trucks. CSS’ comments disclose that
  the diesel oxidation catalyst retrofits are only valid as emission control equipment through
  2012, and equipment meeting more stringent emissions standards will be required for the
  trucks in 2013. Therefore, the retrofitted trucks will not achieve emissions standards over the
  long-term. Consequently, the expenditures for the pre-2007 MY trucks do not represent
  effective and efficient use of Recovery Act funds and are not reasonable costs under the CA.



       D. CSS Response to OIG Recommendations

               i. Compliance with Title 40 CFR Part 30.45 and 30.46

       The OIG Draft Report recommends that CSS be required to comply, at a minimum, with
EPA procurement requirements for past and future procurements under the CA by (a)
maintaining in the procurement records the minimum documentation required by Title 40 CFR
30.46 for procurements exceeding $100,000, and (b) conducting and maintaining in the
procurement records a cost or price analysis for every procurement action.

        In response to OIG and EPA direction, CSS has retroactively complied with EPA’s
procurement requirements for its past procurements. It now maintains the minimum
documentation required for each procurement CSS has conducted over $100,000 and a cost or
price analysis for every procurement action it has conducted. For future procurements, CSS will
maintain the minimum required documentation for procurements over $100,000 and will conduct
a cost or price analysis for every procurement action it undertakes.




12-R-0749                                                                                        61
     OIG Response 19. CSS did not specifically state whether it agreed with the recommendation.
     However, CSS’ comments indicate concurrence with the recommended corrective action.
     With regard to CSS’ comment that it retroactively complied with EPA’s procurement
     requirements for past procurements, we were unable to verify whether the corrective actions
     satisfactorily resolve the documentation and analyses issues because sufficient information
     and supporting documentation was not included in the response to the draft report as discussed
     in OIG Responses 16 and 17.


                 ii. Disallowance of Pre-2007 MY Trucks as Project Costs

        The OIG Draft Report also recommends that EPA disallow the pre-2007 MY trucks as
project costs under the CA. CSS strongly objects to this recommendation, as EPA, through the
direction of CSS’ EPA Project Officer, expressly approved CSS’ purchase of the pre-2007 MY
trucks without retrofits as an eligible cost on the condition that they be retrofitted at a later date.
At stated above, CSS is in the process of retrofitting the trucks and will be done with the retrofits
by June 17, 2012.

     OIG Response 20. Our position on the recommendation remains unchanged. CSS did not
     provide during the audit or with its response to the draft report documentation showing EPA’s
     approval of the purchase of the pre-2007 MY trucks. As discussed in OIG Response 18, we
     acknowledge that the EPA project officer confirmed with CSS that she was aware the process
     of retrofitting the trucks may take a “little bit of time.” However, the retrofits for the pre-2007
     MY trucks had not been completed even though almost 2 years had elapsed since the project
     officer confirmed her understanding of CSS’ plan to upgrade the trucks with emission control
     equipment as of February 2012. With regard to CSS’ comment that the truck retrofits will be
     completed by June 2012, the retrofits do not satisfactorily resolve the CA compliance issue
     with the pre-2007 MY trucks as discussed in OIG Response 18.




V.       Comments on Chapter 5 – ARRA Job Reporting

        The OIG Draft Report states that CSS’ reporting of jobs created or retained with Recovery
Act funds did not comply with OMB reporting guidance in two respects. First, CSS incorrectly
included in its computations CSS labor hours funded with income from the revolving fund program.
Second, it states that CSS reported as full-time equivalent (FTE) the positions of truck operators for
trucks procured by CSS with Recovery Act funding and subsequently leased to the operators.

       Since EPA’s award of the CA to CSS in 2009, CSS has consistently sought guidance from
EPA on how to comply with ARRA jobs reporting guidance. After EPA provided specific
guidance on ARRA job calculation methodology to all ARRA grant recipients in October 2009,
CSS proactively sought additional guidance from its EPA Project Officer on several specific
questions unique to CSS about proper application of EPA’s methodology. During those
discussions, CSS and the EPA Program Office agreed upon a specific methodology that addressed



12-R-0749                                                                                            62
CSS’ questions, pursuant to which CSS has reported its ARRA jobs created or retained figures.
Although the ARRA jobs calculation methodology has been revised at least once, during the
second quarter of the CA project period, EPA has approved each CSS quarterly report on
Recovery Act jobs created or retained since 2009. Therefore, because CSS followed EPA’s
methodology and guidance, and because EPA was approving its ARRA jobs reports, CSS believed
that the methodology it was using was appropriate and consistent with ARRA requirements.

        Although CSS has been diligent in applying EPA’s ARRA jobs calculation methodology,
applying that methodology to the transactions incurred under the CA has always been
challenging because the ARRA jobs methodology is inherently unclear. This is evidenced by
OIG’s own struggle to arrive at a conclusive interpretation of the ARRA methodology as applied
to CSS’ revolving loan fund during the OIG audit. During the audit, the OIG examiners initially
believed CSS had understated its jobs figures, but later decided that CSS had overstated its jobs
figures. Ultimately, the OIG examiners decided that almost none of the jobs CSS reported were
eligible for Recovery Act purposes. CSS believes this interpretation of the ARRA jobs
methodology is deficient, because it fails to capture the significant positive economic impacts
that CSS’ revolving loan fund has had, and continues to have, on thousands of independent
truckers and small businesses. CSS believes it is beyond dispute that CSS’ deployment of the CA
funds has created or helped retain the jobs of scores of truckers throughout the United States.
While CSS is willing to apply the ARRA jobs methodology as OIG and the Program Office
decide, CSS strongly believes that the methodology should reflect as accurately as possible the
actual, positive impacts that CSS has on the national economy.

 OIG Response 21. Our position remains unchanged. As discussed in the draft report, we
 were unable to confirm whether the EPA agreed with CSS’ reporting methodology
 because the first project officer is no longer employed by the EPA. With regard to CSS’
 comment on EPA’s approval of its ARRA reports, EPA staff did not verify that the
 number of jobs created or retained in the reports were correct and met the OMB guidance
 on Recovery Act quarterly reporting.

 We acknowledge that applying the OMB Recovery Act reporting guidance to CSS’
 revolving loan program expenditures under the CA has been challenging because the
 guidance provides only general instructions and criteria. However, the guidance does
 specify that recipients report the estimated number of jobs created or retained with
 Recovery Act funding. As discussed in the draft report, CSS included data for jobs that
 were not funded by the Recovery Act in its quarterly reports.


       A. Labor Hours Funded with Income from the Revolving Loan Fund Program

        The OIG Draft Report states that CSS incorrectly calculated the number of jobs created
or retained for quarterly reports covering the period October 2009 through June 2010 because
CSS included in those reports labor hours funded with income from the CSS’ Revolving Loan
Fund. The OIG Draft Report states that, under OMB reporting guidance, such labor hours should
not have been included in the computation of the number of jobs created or retained because they
were not funded under the Recovery Act.



12-R-0749                                                                                     63
        CSS believes that were it not for the income generated by the loan fund, CSS would not
have been able to maintain and/or add the staff it reported. Thus, even though CSS has not used
CA funds directly for employee labor costs, it has used program income for such expenses. The
CA calls for CSS to “use program income under the same terms and conditions of this agreement,”
so CSS believes that labor hours funded with CA program income should be reported in ARRA
jobs calculations.12 Conservatively, CSS believes the income derived from the CA funds in CSS’
revolving loan fund has, over the course of the project period, created or preserved over 100 FTE
positions for CSS staff. Thus, these labor hours are directly attributable to Recovery Act funds. As
such, CSS reported these labor hours as jobs created with Recovery Act funds.

   OIG Response 22. We acknowledge CSS’ comments on income generated by the revolving
   loan program. However, the OMB guidance on Recovery Act reporting specifies that
   recipients report the estimated number of jobs created or retained with Recovery Act funding
   as discussed in OIG Response 21. The CA programmatic condition cited in CSS’ comments
   establishes the allowable and required usage of program income earned as a result of the EPA
   award. The programmatic condition does not pertain to the reporting of jobs created or
   retained with Recovery Act funds. As discussed in the draft report, CSS overstated the number
   of jobs created or retained in the quarterly reports in part because it included labor hours
   funded with program income.

        B. FTE Truck Operator Positions

       The OIG Draft Report also states that the full-time equivalent (FTE) positions of truck
operators driving trucks procured by CSS with Recovery Act funding should not have been
reported in CSS’ ARRA job figures. The OIG Draft Report states that these positions should not
have been included because the truck operators of the leased trucks are “beneficiaries” of
Recovery Act funding, rather than “recipients” or “sub-recipients.”

        CSS disagrees with the OIG Draft Report’s interpretation of the ARRA guidance. OMB
requires that Recovery Act jobs be reported for sub-recipients, which OMB reporting guidance
defines as “non-Federal entities that are awarded Recovery funding through a legal instrument
from a Prime Recipient. Sub Recipients typically receive a contract, grant, or loan from the
Prime Recipient to support performance of any portion of a project or program funded with
Recovery dollars.”13 CSS believes that, because CSS only awards CA funds to its truck operators
through legal instruments—namely, leases or conditional loans—these truck operators should
constitute sub-recipients for purposes of ARRA reporting.

        The OIG Draft Report, in excluding CSS customers from ARRA reporting figures,
focused on the absence of the word “lease” from the OMB reporting guidance. CSS disagrees
and notes that (a) leases are indisputably legal instruments; (b) the phrase “contract, grant, or
loan” does not represent an exclusive list of legal instruments under which ARRA recipients can
award funds to sub-recipients, and this is signaled by the presence of the word “typically”; and
(c) interpreting the guidance to exclude these CSS customers is contrary to the intent of the

        12
          CA, Programmatic Condition 12.
        13
          OMB Guidance M-09-021, Implementing Guidance for the Reports on Use of Funds Pursuant to the
American Recovery and Reinvestment Act of 2009.


12-R-0749                                                                                                64
Recovery Act, which requires CSS to, as accurately as possible, report the number of all jobs
created or retained with Recovery Act funds.14

        With the CA funds, CSS had, as of 12/31/2010, replaced or upgraded 1,148 trucks, and in
so doing, created or preserved the jobs of at least as many drivers, loaders, maintenance, and
dispatch staff. Using a conservative estimate of 1.5 jobs per truck, this means CSS created or
preserved 1,722 jobs, at a cost of $5,226 in Recovery Act funding per job. Thus, thousands of
truck drivers are in business and operating with clean and efficient diesel trucks because of the
Recovery Act funds granted to CSS. Had CSS not provided a mechanism for these operators to
stay in business, these jobs would have been lost and new jobs would not have been created.

     OIG Response 23. We agree that leases are legal instruments. However, CSS did not provide
     Recovery Act funding to truck operators through lease agreements. According to CSS’
     records, it directly purchased trucks from wholesalers and fleets using Recovery Act funds.
     Therefore, wholesalers and fleets received Recovery Act funds. The truck operators benefitted
     from the Recovery Act funds through the truck lease agreements but did not receive Recovery
     Act funding. As discussed in the draft report, CSS overstated the number of jobs created or
     retained in the quarterly reports in part because it included FTE positions of operators for
     trucks procured with Recovery Act funds and subsequently leased to the operators.

          C. CSS Response to OIG Recommendations

        The OIG Draft Report recommends that EPA (a) assist CSS with developing an ARRA
jobs reporting methodology that complies with OMB guidance; (b) correct past ARRA job
reports with erroneous estimates; and (c) direct CSS to maintain corrected ARRA jobs
documentation in its administrative records and submit any corrections to the federal government
pursuant to future Recovery Act guidance.

        While CSS disagrees with the OIG Draft Report’s conclusions about CSS’ job reporting
figures, CSS stands ready to collaborate with the EPA Program Office to develop an ARRA job
reporting methodology that is compliant with OMB guidance. Once the revised methodology is
determined, CSS will recalculate and correct its prior ARRA quarterly reports, retain corrected
jobs documentation in its administrative records, and submit updated reports to the federal
government consistent with future Recovery Act guidance.

     OIG Response 24. As discussed in the OIG responses above, our position remains unchanged
     on the jobs reporting issues discussed in the draft report. However, we agree that CSS should
     collaborate with EPA to develop a jobs created and retained reporting methodology that meets
     OMB Recovery Act guidance. CSS’ planned actions to correct the reporting errors after the
     methodology is developed should satisfactorily address the recommendations.




14
  ARRA § 1512(c) requires that ARRA grant recipients report “an estimate of the number of jobs created and the
number of jobs retained by the project or activity ….”


12-R-0749                                                                                                        65
                                                                              Appendix C

                                   Distribution
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Air and Radiation
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Director, Grants and Interagency Agreements Management Division, Office of Administration
        and Resources Management
Director, Office of Transportation and Air Quality, Office of Air and Radiation
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Air and Radiation
Audit Follow-Up Coordinator, Office of Grants and Debarment, Office of Administration and
        Resources Management
Cascade Sierra Solutions, Chief Executive Officer




12-R-0749                                                                                66
